             Offices of
         Inspector General


           Department of the Treasury
Board of Governors of the Federal Reserve System
      Federal Deposit Insurance Corporation



 Review of the Joint Implementation
       Plan for the Transfer of
Office of Thrift Supervision Functions


                    OIG-11-064
                 FRB OIG 2011-02
                   EVAL-11-002


                  March 28, 2011
 
Contents


Audit Report

       Background ........................................................................................... 3

       Results of the Joint Review .................................................................... 4

          The Plan Generally Takes Into Consideration the Orderly Transfer of
          Employees ......................................................................................... 4

          The Plan Describes Procedures and Safeguards to Ensure That OTS
          Employees Are Not Unfairly Disadvantaged Relative to Employees of
          OCC and FDIC ................................................................................... 6

          The Plan Sufficiently Takes Into Consideration the Orderly Transfer of
          Authority and Responsibilities .............................................................. 7

          The Plan Sufficiently Takes Into Consideration the Effective Transfer of
          Funds ............................................................................................... 7

          The Plan Sufficiently Takes Into Consideration the Orderly Transfer of
          Property ............................................................................................ 8

          Other Matters Identified During Our Review ........................................... 8

  Recommendation ......................................................................................... 9

  Management Response and OIG Comment ..................................................... 9

Appendices

  Appendix 1:         Objective, Scope, and Methodology ........................................             11
  Appendix 2:         Summary of Title III Requirements and the Joint Implementation
                        Plan with OIG Analysis ......................................................        14
  Appendix    3:      Pay Structures .....................................................................   57
  Appendix    4:      Joint Implementation Plan ......................................................       59
  Appendix    5       FRB Management Comments .................................................              87
  Appendix    6:      FDIC Management Comments ................................................              88
  Appendix    7:      OCC Management Comments ................................................               89
  Appendix    8:      OTS Management Comments .................................................              92

                      Review of the Joint Implementation Plan for the Transfer of                         Page i
                      Office of Thrift Supervision Functions
Contents

  Appendix 9:      Major Contributors to This Report .......................................... 93
  Appendix 10:     Report Distribution ............................................................... 94

Abbreviations

  CFO                  Chief Financial Officer
  Dodd-Frank Act       Dodd-Frank Wall Street Reform and Consumer Protection Act
  FDIC                 Federal Deposit Insurance Corporation
  FIRF                 Financial Institutions Retirement Fund
  FRB                  Board of Governors of the Federal Reserve System
  OCC                  Office of the Comptroller of the Currency
  OIG                  Office of Inspector General
  OTS                  Office of Thrift Supervision
  Plan                 Joint Implementation Plan
  Title III            Transfer of Powers to the Comptroller of the Currency, the
                       Corporation, and the Board of Governors
  Treasury             Department of the Treasury




                   Review of the Joint Implementation Plan for the Transfer of                    Page ii
                   Office of Thrift Supervision Functions
Offices of Inspector General




March 28, 2011

Ben S. Bernanke, Chairman
Board of Governors of the Federal Reserve System

Sheila C. Bair, Chairman
Federal Deposit Insurance Corporation

John G. Walsh, Acting Comptroller of the Currency
Office of the Comptroller of the Currency

John E. Bowman, Acting Director
Office of Thrift Supervision

This report presents the results of our offices’ review of the Joint
Implementation Plan (Plan) prepared by the Board of Governors of
the Federal Reserve System (FRB), the Federal Deposit Insurance
Corporation (FDIC), the Office of the Comptroller of the Currency
(OCC), and the Office of Thrift Supervision (OTS). The Plan details
the steps the agencies will take to implement the provisions of Title
III, Transfer of Powers to the Comptroller of the Currency, the
Corporation, and the Board of Governors, of the Dodd-Frank Wall
Street Reform and Consumer Protection Act (Dodd-Frank Act).
Section 327 of Title III mandated the preparation of the Plan and
our offices’ review.

The objective of our review, as defined by section 327, was to
determine whether the Plan conforms to the provisions of sections
301 through 326 of Title III, to include determining whether the
Plan (1) sufficiently takes into consideration the orderly transfer of
personnel, (2) describes procedures and safeguards to ensure that


Review of the Joint Implementation Plan for the Transfer of       Page 1
Office of Thrift Supervision Functions
OTS employees are not unfairly disadvantaged relative to
employees of OCC and FDIC, (3) sufficiently takes into
consideration the orderly transfer of authority and responsibilities,
(4) sufficiently takes into consideration the effective transfer of
funds, and (5) sufficiently takes into consideration the orderly
transfer of property. As appropriate, we are also to provide any
additional recommendations for an orderly and effective process.

To accomplish our objective, we analyzed the extent to which the
Plan addressed the requirements of Title III, and the actions FRB,
FDIC, OCC, and OTS have taken or are planning to take to support
the implementation of Title III. As part of our work, we interviewed
officials from FRB, FDIC, OCC, and OTS, and representatives from
the American Federation of Government Employees and the
National Treasury Employees Union. We conducted our fieldwork
from January 2011 to March 2011. Appendix 1 contains a detailed
description of our objective, scope, and methodology.

In brief, we concluded that the Plan generally conforms to the
provisions of sections 301 through 326 of Title III. However, we
did note an omission in the Plan. Specifically, the Plan does not
address the prohibition against involuntary separation or relocation
of transferred OTS employees for 30 months (except under certain
circumstances). We are recommending that the Plan be amended
to address this requirement.

We also found that, while not impacting our overall conclusion on
the Plan, certain details need to be worked out to ensure that OTS
employees are not unfairly disadvantaged and an orderly transfer of
OTS powers, authority, and employees can be effectively
accomplished. For example, neither the number of employees to be
transferred to OCC nor the assignment of functions for those
employees has been finalized. In addition, OTS officials expressed
concerns relating to (1) OCC’s assignment of individual employees
and (2) additional OCC certification requirements and a newly
created pay band for certain transferring OTS examiners. We also
noted that OCC is creating new senior-level positions to manage
transferred functions. Those positions are being announced as
competitive between current OCC employees and former OTS
employees. It is important that OCC ensure the selection of
personnel for these positions is done in compliance with


Review of the Joint Implementation Plan for the Transfer of      Page 2
Office of Thrift Supervision Functions
                       5 U.S.C. §3503, Transfer of Functions. Finally, we are reporting on
                       several other matters associated with the transfer of OTS
                       functions, including an OTS pension fund, savings association
                       assessments, and financial reporting by OTS.

                       In accordance with section 327, we will be (1) monitoring the
                       issues raised above as well as the implementation of the Plan and
                       (2) reporting on the progress to transfer the OTS functions every
                       6 months. Appendix 2 presents a section by section summary of
                       the Title III requirements, the corresponding sections of the Plan,
                       and our offices’ analyses. The Plan is provided as Appendix 4.


Background
                       The Dodd-Frank Act was enacted on July 21, 2010. Title III of the
                       act sets forth provisions to address problems and concerns in the
                       multiple agency financial regulatory system by abolishing OTS and
                       transferring its powers and authorities to FRB, FDIC, and OCC
                       1 year after enactment (July 21, 2011), deemed the transfer date.1
                       All OTS functions relating to federal savings associations, all OTS
                       rulemaking authority for federal and state savings associations, and
                       the majority of OTS employees are to be transferred to OCC.
                       OTS’s supervisory responsibility for state-chartered savings
                       associations and OTS employees to support these responsibilities
                       are to be transferred to FDIC; and OTS’s authority for consolidated
                       supervision of savings and loan holding companies and their non-
                       depository subsidiaries is to be transferred to FRB. No OTS
                       employees are required to be transferred to FRB.

                       Section 327(a) of Title III required FRB, FDIC, OCC, and OTS to
                       jointly submit a plan within 180 days to the Congress and the
                       Inspectors General of FRB, FDIC, and the Department of the
                       Treasury (Treasury), detailing the steps they will take to implement
                       the provisions of sections 301 through 326 of Title III. We and the



1
 There is a provision in Title III for the Secretary of the Treasury to extend the transfer date up to 18
months after the enactment of the Dodd-Frank Act upon certain conditions. An extended transfer date
must be published in the Federal Register not later than 270 days (April 17, 2011) after the enactment
of the Dodd-Frank Act. We were told by officials of the affected federal banking agencies that a transfer
date later than July 21, 2011, was not being contemplated at the time of our report.

                       Review of the Joint Implementation Plan for the Transfer of                Page 3
                       Office of Thrift Supervision Functions
                       Congress received the Plan fulfilling this requirement on
                       January 25, 2011.

                       Section 327(b) of Title III requires that within 60 days of receiving
                       the Plan, the Inspectors General of FRB, FDIC, and Treasury jointly
                       provide a written report to FRB, FDIC, OCC, and OTS, with copies
                       to the Congress, that details whether the Plan conforms to the
                       provisions of sections 301 through 326 and includes any additional
                       recommendations for an orderly and effective process. As also
                       required by section 327(b), the Inspectors General of FRB, FDIC,
                       and Treasury are to provide a written report on the status of the
                       implementation of the Plan every 6 months until all aspects of the
                       Plan are implemented.


Results of the Joint Review
                       The Plan Generally Takes Into Consideration the Orderly Transfer of
                       Employees

                       We concluded that the Plan generally takes into consideration the
                       orderly transfer of OTS employees. However, we noted an
                       omission in the Plan. Specifically, the Plan does not address the
                       prohibition in Title III pertaining to the involuntary separation, or
                       involuntary relocation, of transferred OTS employees for 30
                       months (except under certain circumstances).2 OCC officials told
                       us that while decisions have not been made, they expect there will
                       be circumstances where it will be necessary to involuntarily
                       reassign an employee outside of his or her geographic location for
                       the efficient operation of the agency. FDIC officials stated that
                       they could not think of any circumstances that would cause FDIC
                       to take an involuntary action other than a matter related to
                       performance or employee conduct.

                       In addition, certain details need to be worked out before the
                       transfer of individual OTS employees can be effectively


2
  As provided in section 322(g), this prohibition does not limit the right of OCC or FDIC to separate an
employee for cause or for unacceptable performance; terminate an appointment to a position excepted
from the competitive service because of its confidential policy-making, policy-determining, or policy-
advocating character; or reassign an employee outside such employee’s locality pay area when OCC or
FDIC determines that the reassignment is necessary for the efficient operation of the agency.

                       Review of the Joint Implementation Plan for the Transfer of                Page 4
                       Office of Thrift Supervision Functions
                       accomplished. For example, as of March 17, 2011, OCC had not
                       finalized the number of employees to be transferred to OCC or the
                       assignment of functions for these employees.

                       In interviews, OTS officials expressed their concerns relating to the
                       following matters:

                           There will not be enough positions with the same functions for
                           all OTS transferred employees, including support staff, at OCC.
                           For example, with regard to management positions, the current
                           number of proposed management positions available to OTS
                           transferred employees are fewer than the current number of
                           OTS authorized management positions. Accordingly, there is
                           concern that OTS managers will be assigned to positions at
                           least one level lower than what they currently hold. OTS
                           conveyed these concerns to OCC through correspondence and
                           meetings. OCC has taken the position that the Dodd-Frank Act
                           does not require OCC to redesign or reorganize OCC’s structure
                           so that OTS managers are guaranteed particular positions.
                           Rather, the act provides that transferred employees will be
                           placed in positions at OCC and FDIC responsible for the same
                           functions and duties, to the extent practicable (emphasis
                           added).3

                           OCC plans to require additional certification for certain
                           transferred OTS examiners4 prior to them being able to
                           supervise national bank examinations. Conversely, FDIC is not
                           requiring additional certification for transferred OTS examiners
                           before they are able to supervise FDIC-regulated bank


3
  OCC’s position was communicated to the OTS Deputy Director in a letter dated October 25, 2010,
from the OCC First Senior Deputy Comptroller and Chief Counsel. The applicable language from Title III,
section 322(e)(2), states that to the extent practicable, each transferred employee shall be placed in a
position at OCC or FDIC, as applicable, responsible for the same functions and duties as the transferred
employee had on the day before the date on which the employee was transferred, in accordance with
the expertise and preferences of the transferred employee.
4
  The affected OTS examiners hold the title of Examiner III and they are at the OTS TG-18 grade level,
with supervisory responsibilities and the authority to sign off on reports of savings association
examinations. According to OCC, being a commissioned national bank examiner demonstrates that the
individual has the requisite competence in not only the full range of safety and soundness issues, but
also asset management, bank information systems, and compliance. TG-18 examiners have been
accredited in either safety and soundness, compliance, trust (asset management) or bank information
technology.

                       Review of the Joint Implementation Plan for the Transfer of                Page 5
                       Office of Thrift Supervision Functions
                           examinations. Neither OCC nor FDIC changed their practice with
                           respect to how each agency recognizes third-party conferred
                           examiner certifications with enactment of the Dodd-Frank Act.
                           OCC operates under a long-standing position that an examiner-
                           in-charge for a national bank must be an OCC-commissioned
                           national bank examiner. As a result, OTS is concerned that OCC
                           plans to assign the TG-18 OTS examiners to a newly created
                           pay band within OCC. This newly created pay band provides for
                           the same pay as the current OTS pay band, but with a lower
                           salary range than what would have been the case had OCC
                           accepted the OTS accreditation. OTS examiners are to remain in
                           that newly created pay band until additional certification is
                           obtained or until they are selected through competition to a
                           higher band (V or VI) position that does not require the NBE
                           commission.5 See Appendix 3 for a description of OCC’s
                           planned new pay band for certain transferred OTS employees.
                           OCC has contracted with a consultant to study and identify any
                           differences between the OTS examiner accreditation process
                           and the OCC Uniform Commission Examination process and to
                           provide recommendations. The consultant’s final work product
                           was not complete at the time of our report.

                       As part of our future work on the transfer of OTS functions, we
                       will monitor these matters as the Plan is implemented.

                       The Plan Describes Procedures and Safeguards to Ensure that OTS
                       Employees Are Not Unfairly Disadvantaged Relative to Employees
                       of OCC and FDIC

                       The Plan describes procedures and safeguards to ensure that OTS
                       employees are not unfairly disadvantaged relative to employees of
                       OCC and FDIC. We concluded that the procedures and safeguards
                       described in the Plan are reasonable. However, until the transfer of
                       OTS employees is accomplished, it is too soon to tell whether the
                       procedures and safeguards are effective. As discussed above, OTS
                       officials have expressed concerns relating to the (1) OCC’s
                       assignment of individual employees and (2) additional OCC
                       certification requirements and a newly created pay band for certain

5
 OTS examiners at the OTS TG-19 grade level hold certifications that are commensurate to OCC’s
national bank examiner certifications. These OTS examiners are to be transferred into OCC at the level
consistent with the OCC examiner and will not be placed in the newly created pay band.

                       Review of the Joint Implementation Plan for the Transfer of               Page 6
                       Office of Thrift Supervision Functions
                      examiners. In performing our assessment, we also noted that OCC
                      is creating senior-level positions to manage those functions being
                      transferred; the positions are being announced as competitive
                      between current OCC employees and former OTS employees. It is
                      important that OCC ensure the selection of personnel for these
                      positions is done in compliance with 5 U.S.C. §3503, Transfer of
                      Functions.6

                      Accordingly, we believe that certain details of the Plan need to be
                      worked out before an orderly transfer of individual OTS employees
                      can be effectively accomplished, and we will monitor this area
                      going forward.

                      The Plan Sufficiently Takes Into Consideration the Orderly Transfer
                      of Authority and Responsibilities

                      We concluded that the Plan generally conforms to the provisions of
                      the sections relating to the transfer of authority and
                      responsibilities, and sufficiently takes into consideration the orderly
                      transfer of authority and responsibilities. However, we were
                      informed of a potential issue relating to the transfer of functions.
                      Specifically, Title III transfers all rulemaking authority for savings
                      associations, both federal and state, to OCC. FDIC officials
                      expressed concern that not transferring the state-chartered savings
                      associations rulemaking authority to FDIC could inhibit FDIC’s
                      ability to effectively regulate the 61 state-chartered savings
                      associations being transferred to FDIC. FDIC is not seeking or
                      currently planning to seek a legislative change; therefore, we do
                      not view this issue as one impacting the orderly transfer of OTS
                      functions. However, we will monitor this issue going forward.

                      The Plan Sufficiently Takes Into Consideration the Effective
                      Transfer of Funds

                      The Plan generally conforms to the provisions of the sections
                      relating to funding and sufficiently takes into consideration the
                      effective transfer of funds. The Plan provides that OTS funds will

6
 5 U.S.C. §3503 states that when a function is transferred from one agency to another, each
competing employee in the function shall be transferred to the receiving agency for employment in a
position for which he is qualified before the receiving agency may make an appointment from another
source to that position.

                      Review of the Joint Implementation Plan for the Transfer of              Page 7
                      Office of Thrift Supervision Functions
be transferred to OCC. FDIC and FRB determined that no funds
related to the OTS transfer of authority and responsibilities need to
be transferred to their respective agencies.

We were told that FDIC’s and FRB’s 2011 budgets include funding
for the transfer of OTS responsibilities. In addition, OCC has re-
allocated approximately $3 million in its fiscal year 2011 budget to
pay the expenses associated with the consolidation of certain OTS
functions before the transfer date of July 21, 2011. OCC has also
requested that OTS pay an office space termination fee of
approximately $350,000 for its office in Atlanta, Georgia, so that
OTS staff can be physically consolidated into OCC facilities.

The Plan Sufficiently Takes Into Consideration the Orderly Transfer
of Property

The Plan generally conforms to the provisions of the sections
relating to the transfer of property and sufficiently takes into
consideration the orderly transfer of property. The Plan does not
address what property and administrative services are necessary to
support OCC, FDIC, and FRB prior to the transfer date. However,
we do not consider this a significant omission in the Plan.

Other Matters Identified During Our Review

The following are other matters that we identified during our
review.

    Underfunded Pension Plan: Most OTS employees participate in
    either the Civil Service Retirement System or the Federal
    Employees Retirement System, which are administered by the
    Office of Personnel Management. However, approximately 460
    OTS retirees and 375 current OTS employees participate in a
    separate retirement system, the Financial Institutions Retirement
    Fund (FIRF), paid by OTS. Under the Plan, OCC is to sponsor
    FIRF after the transfer date. OTS’s audited fiscal year 2010 and
    2009 financial statements report disclosed that FIRF had an
    estimated shortfall as of July 1, 2010, of $74.7 million. The
    shortfall is not addressed by the Plan. According to OCC and
    OTS, discussions for managing the underfunded FIRF are
    ongoing.


Review of the Joint Implementation Plan for the Transfer of     Page 8
Office of Thrift Supervision Functions
                Supervisory Assessments: Section 318 of Title III, which relates
                to funding, states that OCC may collect assessments, fees, or
                other charges, as determined necessary or appropriate to carry
                out its responsibilities; and that the cost of conducting any
                regular examination or special examination may be assessed by
                FDIC against the institution or entity to meet the expenses of
                FDIC in carrying out such examinations. With the transfer of
                OTS functions, federal-chartered savings associations will pay
                assessments to OCC. Consistent with FDIC’s current practice
                for state non-member insured depository institutions for which it
                is the primary federal supervisor, state-chartered savings
                associations will not pay assessments for examinations to FDIC.
                Rather, FDIC is funded by premiums that financial institutions
                pay for deposit insurance coverage and from earnings on
                investments in U.S. Treasury securities. We do not view this
                issue as one that directly impacts the orderly transfer of OTS
                functions.

                OTS Financial Reporting for Fiscal Year 2011: OTS, OCC, and
                their respective auditors are currently determining the financial
                reporting requirements, presentation, and audit scope related to
                OTS’s fiscal year 2011 financial statements.

            Recommendation

            We recommend that the principals amend the Plan to address the
            prohibition in section 322(g) of Title III against involuntary
            separation, or involuntary relocation, of transferred OTS employees
            for 30 months (except under certain circumstances).


Management Response and OIG Comment
            In written responses, FDIC and OCC, the agencies receiving OTS
            employees, along with OTS, concurred with the recommendation.
            These agencies will work together to incorporate language into the
            Plan that addresses the prohibition in section 322(g) of Title III
            against involuntary separation or involuntary relocations of
            transferred OTS employees by May 16, 2011. FRB stated in its
            written response that it agreed with the conclusion that FRB's part
            of the Plan complies with Title III.

            Review of the Joint Implementation Plan for the Transfer of     Page 9
            Office of Thrift Supervision Functions
                    In its response, OCC provided additional comments on the transfer
                    of OTS employees, and its supervisory approach for transferred
                    OTS functions.

                    The management comments of FRB, FDIC, OCC, and OTS are
                    provided as Appendices 5, 6, 7, and 8, respectively.

                    The agencies’ planned action meets the intent of our
                    recommendation.

                                                      *******

                    We appreciate the courtesies and cooperation provided to our
                    staffs during the audit. If you wish to discuss the report, you may
                    contact Marla A. Freedman, Assistant Inspector General for Audit,
                    Treasury OIG, at (202) 927 5400; E. Marshall Gentry, Acting
                    Assistant Inspector General for Evaluations, FDIC OIG, at
                    (703) 562-6378; or Anthony J. Castaldo, Associate Inspector
                    General for Inspections and Evaluations, FRB OIG, at
                    (202) 973 5024. Major contributors to this report are listed in
                    Appendix 9.

/s/                             /s/                                    /s/


Eric M. Thorson                Jon T. Rymer                             Elizabeth A. Coleman
Inspector General              Inspector General                        Inspector General
Department of the              Federal Deposit                          Board of Governors of the
Treasury                       Insurance Corporation                    Federal Reserve System




                    Review of the Joint Implementation Plan for the Transfer of              Page 10
                    Office of Thrift Supervision Functions
Appendix 1
Objective, Scope, and Methodology



We conducted this joint review to fulfill our requirement under
section 327(b) of Title III, Transfer of Powers to the Comptroller of
the Currency, the Corporation, and the Board of Governors (Title
III), of the Dodd-Frank Wall Street Reform and Consumer Protection
Act. This section requires the Inspectors General of the Board of
Governors of the Federal Reserve System (FRB), the Federal
Deposit Insurance Corporation (FDIC), and the Department of the
Treasury (Treasury) to review the Joint Implementation Plan (Plan)
submitted by FRB, FDIC, the Office of the Comptroller of the
Currency (OCC), and the Office of Thrift Supervision (OTS)
detailing the steps they will take to implement the provisions of
Title III.

The objective for our joint review, as defined by section 327(b),
was to determine whether the Plan conforms to the provisions of
sections 301 through 326 of Title III, and the provisions of the
amendments made by such sections, to include determining
whether the Plan (1) sufficiently takes into consideration the
orderly transfer of personnel, (2) describes procedures and
safeguards to ensure that OTS employees are not unfairly
disadvantaged relative to employees of OCC and FDIC, (3)
sufficiently takes into consideration the orderly transfer of authority
and responsibilities, (4) sufficiently takes into consideration the
effective transfer of funds, and (5) sufficiently takes into
consideration the orderly transfer of property. As appropriate, we
are also to provide any additional recommendations for an orderly
and effective process. We conducted our fieldwork in Arlington,
Virginia, and Washington, DC from January 2011 to March 2011.

To accomplish our objective, we performed the following work:

    We analyzed the extent to which the Plan addressed all the
    requirements of Title III, and actions FRB, FDIC, OCC, and OTS
    have taken or are planning to take to support the
    implementation of sections 301 through 326 of Title III.
    Appendix 2 presents a section by section summary of the Title
    III requirements, the corresponding provisions of the Plan, and
    our offices’ analyses.
    We reviewed Title III and all related legislation. The Plan is
    provided as appendix 4.
    We reviewed relevant documentation such as: correspondence
    between the banking agencies’ high-level officials discussing

Review of the Joint Implementation Plan for the Transfer of      Page 11
Office of Thrift Supervision Functions
Appendix 1
Objective, Scope, and Methodology



    key issues relating to the transfer of OTS; memoranda and
    policies discussing various aspects of the transfer such as pay
    structures, benefits, and professional certifications; the banking
    agencies’ financial statements audit reports; and the draft report
    of the consultant hired by OCC to identify any differences
    between the OTS examiner accreditation process and the OCC
    Uniform Commission Examination process.
    We interviewed members of the FDIC transition team, including
    the Deputy Director, Corporate Planning and Performance
    Management, Division of Finance, transition team lead; Deputy
    Director, Division of Administration; Chief Information Officer
    and Director, Division of Information Technology; Deputy
    General Counsel, Supervision; Deputy General Counsel,
    Corporate, Consumer, Insurance and Legislation; Associate
    Director, Risk Management Examinations Branch, Division of
    Risk Management Supervision; Deputy Director, Benefits
    Center, Human Resources Branch; and additional FDIC staff
    from the Division of Administration, Division of Risk
    Management Supervision, and Legal Division.
    We interviewed members of the OCC/OTS transition team,
    including OCC’s Chief Financial Officer (CFO) and head of the
    transition team, OTS’s CFO, OCC’s Deputy Comptroller for
    Human Resources, OTS’s Managing Director for Human Capital,
    OCC’s Deputy Chief Counsel, and OCC’s Director of
    Administrative and Internal Law.
    We interviewed OCC senior officials, including the Senior
    Deputy Comptroller for Midsize/Community Bank Supervision,
    and the Director of Public Affairs Operations.
    We interviewed OTS senior officials, including the Acting
    Director and the Deputy Director.
    We interviewed OCC’s Contracting Officer’s Technical
    Representative responsible for the consultant’s study to identify
    any differences between the OTS examiner accreditation
    process and the OCC Uniform Commission Examination
    process.
    We interviewed an OCC representative from the National
    Treasury Employees Union and an OTS representative, the
    Chapter President, from the American Federation of Government
    Employees.
    We interviewed FRB senior officials in the Division of Banking
    Supervision and Regulation, and received written responses to
    questions posed to officials in the Legal Division.

Review of the Joint Implementation Plan for the Transfer of     Page 12
Office of Thrift Supervision Functions
Appendix 1
Objective, Scope, and Methodology



Consistent with the audit objective, we did not assess FRB’s,
FDIC’s, OCC’s, or OTS’s overall internal control or management
control structure, obtain data from their information systems, or
assess the effectiveness of their information system controls.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




Review of the Joint Implementation Plan for the Transfer of    Page 13
Office of Thrift Supervision Functions
                    Appendix 2
                    Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



As required by section 327(a) of Title III, Transfer of Powers to the Comptroller of the Currency, the Corporation, and the Board
of Governors (Title III), of the Dodd-Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank Act), on January 25,
2011, the Board of Governors of the Federal Reserve System (FRB), the Federal Deposit Insurance Corporation (FDIC), the Office
of the Comptroller of the Currency (OCC), and the Office of Thrift Supervision (OTS) submitted a Joint Implementation Plan
(Plan) to the Congress, and the Inspectors General of the Department of the Treasury (Treasury), FDIC, and FRB detailing the
steps the respective agencies will take to implement Title III. Section 327(b) of Title III requires the Inspectors General to jointly
report on whether the Plan conforms to the provisions of sections 301 through 326 of Title III.

This appendix presents a section by section summary of the Title III requirements, the corresponding sections of the Plan, and
our offices’ analyses of whether the Plan conforms to Title III requirements. In accordance with Title III, as part of our future
work on the transfer of OTS functions, we will be monitoring implementation of the Plan and the resolution of certain matters
discussed in our analysis, and will be reporting on the progress to transfer the OTS functions every 6 months.

Title III does not include sections 303–310, and 320. Additionally, the following Title III sections are not included in this
appendix because they do not require any specific action be taken by OCC, OTS, FDIC, or FRB: 300-302, 312(c), 314(a),
314(c), 315, 316(a)(1), 317, 318(a), 319, 321(a)(3), 321(c), 322(a)(3)(A), 322(a)(3)(B), 322(a)(4), 322(c)(1), 322(c)(2),
322(h)(3), 322(h)(4), 322(i)(2)(E)(ii)(IV), 322(l)(1), and 322(l)(2). The sections excluded from this appendix either discussed the
purpose of the title, defined certain terms, or amended existing law.

             Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
                                             SUBTITLE A: TRANSFER OF POWERS AND DUTIES
 Section 311. Transfer Date.
The transfer date is 1 year (July 21, 2011) after the           Transfer of Authority and Responsibilities (Sec. 3.,     The Plan conforms to the
date of enactment of the Dodd-Frank Act, except as              pp. 13-22)                                               section. According to
provided in subsection (b). Subsection (b) allows for                                                                    officials of FRB, FDIC, OCC,
the Secretary of the Treasury, in consultation with             The Plan recognizes the transfer date of July 21,        and OTS, there are no plans
the OCC, OTS, FRB, and FDIC, to extend the period               2011, 1 year after enactment of the Dodd-Frank           at this time to seek a later
and designate a transfer date that is not later than 18         Act. (pp. 16 & 18)                                       transfer date.
months after the date of enactment of the Dodd-
Frank Act, provided specific Committees of the
Congress are informed of: (a) a determination that an



                    Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                          Page 14
                    Appendix 2
                    Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



              Title III Requirements                               Joint Implementation Plan Sections                          OIG Analysis
orderly process to implement Title III is not feasible
within 1 year; (b) an explanation of why an extension
is necessary; (c) the new transfer date; and (d) a
description of the steps that will be taken to initiate
the process of an orderly and timely implementation
of Title III within the extended time period. The
Secretary is also required to publish a Federal
Register notice of any such extended transfer date
within a certain timeframe. (311(a) and 311(b))
Section 312. Powers and Duties Transferred.
Savings and Loan Holding Company Functions and Rulemaking Authority Transferred
All functions of OTS, including the authority to issue   Transfer of Authority and Responsibilities                      The Plan conforms to the
orders, relating to the following will be transferred to Regarding Oversight of Savings and Loan Holding                 section.
FRB on the transfer date:                                Companies (FRB) (Sec 3.3., pp. 18-19)
                                                                                                                         Title III does not address the
a) the supervision of savings and loan holding                      The Plan recognizes that the Dodd-Frank Act          transfer of OTS employees
   companies and any subsidiary (other than a                       transfers authority for supervision of savings       to FRB, and, therefore, the
   depository institution) of a savings and loan                    and loan holding companies and their non-            matter is not required to be
   holding company; and                                             depository subsidiaries from OTS to FRB              included in the Plan.
b) all rulemaking authority relating to savings and                 effective July 21, 2011.                             However, we are including
   loan holding companies. (312(b)(1)(A))                           The Plan states that FRB is working closely          an issue raised by FRB senior
                                                                    with OTS, OCC, and FDIC to implement the             officials because it could
FRB shall succeed to all powers, authorities, rights,               transfer.                                            potentially affect savings and
and duties that were vested in OTS relating to the                  FRB and OTS signed a memorandum of                   loan holding company
functions and authority transferred under                           understanding to facilitate sharing of               supervision. FRB senior
subparagraph (A). (312(b)(1)(B))                                    confidential supervisory information.                officials noted early
                                                                    FRB staff are reviewing FRB’s bank holding           indications of possible
All rulemaking authority of OTS under section 11 of
                                                                    company supervision program to determine             challenges in recruiting OTS
the Home Owners' Loan Act (HOLA) (12 U.S.C.
                                                                    how to incorporate savings and loan holding          personnel because of
1468) relating to transactions with affiliates and
                                                                    companies into the program consistent with           differences between the FRB
extensions of credit to executive officers, directors,
                                                                    HOLA.                                                and OTS benefits and salary
and principal shareholders and under section 5(q) of
                                                                    Each savings and loan holding company has            systems. FRB is in the



                    Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 15
                        Appendix 2
                        Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



                 Title III Requirements                                Joint Implementation Plan Sections                            OIG Analysis
    HOLA relating to tying arrangements is transferred to               been assigned to an FRB for supervision. To          process of assessing the
    FRB.1 (312(b)(2)(A))                                                facilitate the transition, FRB examiners are         issue and determining an
                                                                        joining certain OTS examinations prior to the        approach to address any
                                                                        transfer date.                                       emerging problems.
                                                                        Discussions are underway regarding the
                                                                        transition of the caseload from OTS to FRB.
                                                                        FRB anticipates that all regulations as
                                                                        appropriate, relating to supervision of savings
                                                                        and loan holding companies and their non-
                                                                        depository institution subsidiaries and to
                                                                        transactions with affiliates; extensions of
                                                                        credit to executive officers, directors, and
                                                                        principal shareholders; and tying arrangements
                                                                        will continue and will be enforceable by the
                                                                        appropriate agency.
                                                                        FRB established a working group to analyze
                                                                        OTS and FRB regulations and guidance
                                                                        documents to determine any policy or
                                                                        technical differences and identify any gaps.
                                                                        FRB will make decisions about whether to
                                                                        amend any OTS regulations after the transfer
                                                                        date and will only make changes after a public
                                                                        comment period.
                                                                        FRB will have the authority to require
                                                                        grandfathered non-financial unitary savings
                                                                        and loan holding companies to establish an
                                                                        intermediate holding company.
                                                                        FRB has established a working group to

1
  Tying arrangements are prohibited by section 5(q) of HOLA. HOLA defines a tying arrangement as an arrangement whereby the sale of property or a
financial service (tying good) by a savings association is conditional on the customer obtaining additional credit, property, or financial service (tied good)
from such savings association.




                        Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                               Page 16
                        Appendix 2
                        Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



                 Title III Requirements                                Joint Implementation Plan Sections                            OIG Analysis
                                                               consider issues, and provide opportunities for
                                                               public comment prior to implementation of
                                                               unitary savings and loan holding company
                                                               supervision.
    Functions and Rulemaking Authority Related to Federal Savings Associations Transferred
    All functions relating to federal savings associations Federal Savings Associations (Sec 3.1., pp. 13-                   The Plan conforms to the
    and rulemaking authority of OTS relating to savings    14)                                                               section.
    associations will be transferred to OCC on the
    transfer date. OCC shall succeed to all powers,            All OTS functions relating to the approximately
    authorities, rights, and duties that were vested in        670 federal savings associations will be
    OTS on the transfer date. (312(b)(2)(B))                   transferred on the transfer date to OCC.
                                                               All rulemaking authority for federal and state
                                                               savings associations will be transferred to
                                                               OCC on the transfer date.
                                                               OCC developed 12 principles to guide the
                                                               supervision integration strategy.2
                                                               OCC plans to integrate OTS staff and
                                                               functions into the current OCC structure and
                                                               supervisory model.
                                                               In 2011, OCC and OTS will jointly develop
                                                               fiscal year 2012 examination plans and
                                                               supervisory strategies and will jointly conduct
                                                               a small number of pilot examinations.


2
  OCC’s 12 principles are: (1) building a sustainable staffing structure that provides flexibility through the transition; (2) upholding the protections afforded
by the legislation and maximizing opportunities for staff; (3) fully and quickly integrating thrifts and OTS staff into OCC’s supervision model; (4) preserving
the single Deputy Comptroller model in each OCC district and department to ensure clear leadership; (5) preserving the benefits of a flat organizational
structure, including bank supervision decision-making authority; (6) ensuring a reasonable span of control for managers with the additional savings
association supervision; (7) minimizing disruption to staff, processes, and industry; (8) minimizing the number of new office locations; (9) over time,
having employees live where the work is located; (10) over time, ensuring each commissioned examiner has the skill set and credentials to supervise both
savings associations and banks; (11) deploying staff consistent with OCC’s integrated staffing strategy; and (12) assigning larger federal savings
associations to OCC’s Midsize and Large Bank Supervision portfolios based on business model and geographic footprint.




                        Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                               Page 17
                   Appendix 2
                   Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                               Joint Implementation Plan Sections                           OIG Analysis
                                                                   OCC’s community bank supervision unit will
                                                                   supervise the vast majority of federal savings
                                                                   associations. Its special supervision, midsize,
                                                                   and large bank supervision units will supervise
                                                                   federal savings associations whose profiles
                                                                   align with those units.
Functions of State Savings Associations Transferred
All functions of OTS relating to state savings                 State Savings Associations (Sec 3.2., pp. 16-17)         The Plan generally conforms
associations will be transferred to FDIC on the                                                                         to the section.
transfer date. FDIC shall succeed to all powers,                   The Plan acknowledges the Dodd-Frank Act
authorities, rights, and duties that were vested in                requirement to transfer supervisory                  We were informed of a
OTS on the transfer date. (312(b)(2)(C))                           responsibility for the approximately 61 state-       potential issue relating to the
                                                                   chartered savings associations from OTS to           transfer of functions.
                                                                   FDIC.                                                Specifically, Title III transfers
                                                                   FDIC and OTS are working closely to execute          all rulemaking authority for
                                                                   an orderly transfer of authority and                 savings associations, both
                                                                   responsibility to ensure effective supervision       federal and state, to OCC.
                                                                   during and after the transition period.              FDIC officials expressed
                                                                   FDIC and OTS have agreed on a division of            concern that not transferring
                                                                   responsibility for 2011 examinations                 the state-chartered savings
                                                                   scheduled.                                           associations rulemaking
                                                                   OTS and the appropriate state regulator will         authority to FDIC could
                                                                   retain responsibility for scheduled                  inhibit FDIC’s ability to
                                                                   examinations that can be completed prior to          effectively regulate the 61
                                                                   the transfer date. For the remaining                 state-chartered savings
                                                                   examinations, OTS and FDIC will develop              associations being
                                                                   plans for a coordinated transfer of                  transferred to FDIC. FDIC is
                                                                   responsibility to FDIC.                              not seeking or currently
                                                                   After the transfer date, FDIC will incorporate       planning to seek a legislative
                                                                   state-chartered savings associations into its        change; therefore, we do not
                                                                   supervisory program. All of them are expected        view this issue as one
                                                                   to be absorbed into FDIC’s regional                  impacting the orderly transfer




                   Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                             Page 18
                       Appendix 2
                       Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



                 Title III Requirements                               Joint Implementation Plan Sections                          OIG Analysis
                                                                       supervisory structure.                               of OTS functions. We will
                                                                       Prior to the transfer date, FDIC will coordinate     monitor this issue going
                                                                       monthly with OTS regarding examination plans         forward.
                                                                       and scheduling for state-chartered savings
                                                                       associations.
                                                                       OTS will coordinate with FDIC regarding
                                                                       savings associations subject to or expected to
                                                                       be subject to enforcement action.
                                                                       Prior to the transfer date, FDIC will participate
                                                                       in OTS examinations of state-chartered
                                                                       savings associations with assets of more than
                                                                       $1 billion or a CAMELS composite rating of 3
                                                                       or lower.3
                                                                       FDIC may rely on OCC to maintain its
                                                                       supervisory systems and make data on state-
                                                                       chartered thrifts available to FDIC for a brief
                                                                       period of time after the transfer date.
    Section 313. Abolishment.
    Effective 90 days after the transfer date, OTS and             Transfer of Authority and Responsibilities               The Plan conforms to the
    the position of OTS Director are abolished. (313)              Regarding Oversight of Federal Savings                   section relating to the
                                                                   Associations (Sec. 3.1., pp. 13-15)                      abolishment of OTS.
                                                                                                                            However, the Plan does not
                                                                       The Plan recognizes that OTS is abolished 90         specifically mention the
                                                                       days after the transfer date.                        abolishment of the position
                                                                                                                            of OTS Director. We do not
                                                                   Disposition of OTS Affairs (Sec. 6.3., p. 28)            consider this a significant
                                                                                                                            omission.
                                                                       The Acting Director of OTS and a small cadre

3
  Federal banking agencies use the Uniform Financial Institutions Rating System, or “CAMELS,” to assign composite and component ratings to financial
institutions. An institution’s composite CAMELS rating integrates ratings from six component areas—capital adequacy, asset quality, management,
earnings, liquidity, and sensitivity to market risk. The ratings range from 1 to 5 with 1 being the highest rating and least supervisory concern.




                       Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                          Page 19
                   Appendix 2
                   Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                               Joint Implementation Plan Sections                          OIG Analysis
                                                                   of staff will make a final disposition of the
                                                                   affairs of OTS during the 90-day period after
                                                                   the transfer date.
                                                                   OTS will use this period to ensure a full and
                                                                   accurate accounting and transfer of all OTS
                                                                   assets.
                                                                   OTS will ensure that compensation and
                                                                   benefits owed to OTS employees be provided,
                                                                   and prudently manage any remaining assets
                                                                   until transferred.
                                                                   OTS intends to take necessary actions to
                                                                   ensure an appropriate disposition of its affairs
                                                                   and document the measures taken to wind
                                                                   down the agency.
Section 314. Amendments to the Revised Statutes.
The Comptroller of the Currency shall designate a              Designation of a Deputy Comptroller for Thrift           The Plan conforms to the
Deputy Comptroller who shall be responsible for the            Supervision (Sec. 3.1.1., p. 16)                         section. OCC named a
supervision and examination of federal savings                                                                          former OTS employee to this
associations. (314(b))                                             The Deputy Comptroller for Thrift Supervision,       position on November 3,
                                                                   who will report to the Senior Deputy                 2010. The individual will
                                                                   Comptroller for Midsize/Community Bank               assume the responsibilities of
                                                                   Supervision, will lead the planning process for      this position on the transfer
                                                                   integrating OTS examination and supervision          date.
                                                                   functions and staff, serve as a key senior
                                                                   management group member, coordinate the
                                                                   nationwide network of senior thrift advisors,
                                                                   and function as the key advisor to other
                                                                   deputy comptrollers on large and problem
                                                                   thrifts.




                   Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 20
                    Appendix 2
                    Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
Section.316. Savings Provisions.
Continuation of Suits
No action or proceeding commenced by or against                 Continuation of Suits (Sec. 3.5., p. 21)                 The Plan conforms to the
OTS or the OTS Director before the transfer date is                                                                      section.
abated. However:                                             All actions or proceedings commenced by or
                                                             against OTS prior to the transfer date are
    for any action or proceeding arising out of a            continued.
    function of OTS or the OTS Director transferred          OCC, FDIC, and FRB will be substituted for
    to FRB, FRB shall be substituted as a party to the       OTS as parties for such actions on or after the
    action or proceeding on and after the transfer           transfer date.
    date;                                                    OCC, FDIC, and FRB will review OTS litigation
    for any action or proceeding arising out of a            files and determine which agency will assume
    function of OTS or the OTS Director transferred          responsibility. Cases with co-parties that may
    to OCC, OCC or the Comptroller of the Currency           involve dual regulatory oversight under the
    shall be substituted as a party to the action or         Dodd-Frank Act will be assigned accordingly.
    proceeding on and after the transfer date; and           OTS will furnish case files to the receiving
    for any action or proceeding arising out of a            agencies on or before the transfer date.
    function of OTS or the OTS Director transferred to       OCC and FDIC will handle actions that involve
    FDIC, FDIC shall be substituted as a party to the        employees transferred to OCC or FDIC,
    action or proceeding on and after the transfer date.     respectively.
    (316(a)(2))                                              OCC will handle employment actions of former
                                                             OTS employees who have not transferred to
                                                             OCC or FDIC.
Continuation of Existing OTS Orders, Resolutions, Determinations, Agreements, etc.
All orders, resolutions, determinations, agreements,      Continuation of Existing Orders, Resolutions,                  The Plan conforms to the
regulations, interpretative rules, other interpretations, Determinations, Agreements, Regulations, etc                   section.
guidelines, procedures, and other advisory materials,     (Sec. 3.6., p. 21)
that have been issued, made, prescribed, or allowed
to become effective by OTS or the OTS Director, or           All orders, resolutions, determinations,
by a court of competent jurisdiction, in the                 agreements, regulations, interpretive rules,
performance of functions that are transferred shall          other interpretations, guidelines, procedures,
continue in effect, and shall be enforceable by or           and other advisory materials that have been



                    Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                         Page 21
                    Appendix 2
                    Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
against:                                                            issued by OTS, or a court of competent
                                                                    jurisdiction, in the performance of functions
   FRB, in the case of a function of OTS transferred                transferred by the Dodd-Frank Act that are in
   to FRB;                                                          effect on the day before the transfer date will
   OCC, in the case of a function of OTS transferred                continue to remain in effect according to their
   to OCC; and                                                      terms. These materials will be enforceable by
   FDIC, in the case of a function of OTS transferred               or against OCC, FDIC, and FRB, as
   to FDIC. (316(b))                                                appropriate, consistent with the transfer of
                                                                    functions until modified, terminated, set aside,
                                                                    or superseded by an appropriate agency, court
                                                                    of competent jurisdiction, or operation of law.
Identification of Regulations Continued
Not later than the transfer date:                               Review of OTS Regulations (Sec. 3.1.3., p. 16)           The Plan conforms to the
                                                                                                                         section.
   FRB shall identify and publish a list in the Federal         Identification of Regulations Continued (Sec.
   Register of the regulations continued that will be           3.6.1., p. 21)
   enforced by FRB;
   OCC shall, after consultation with FDIC, identify                OCC has begun a review of all OTS regulations
   and publish a list in the Federal Register of the                regarding savings associations and is working
   regulations continued that will be enforced by                   with OTS staff to determine how to integrate
   OCC; and                                                         OTS regulations with OCC regulations. The
   FDIC shall, after consultation with OCC, identify                process is expected to include certain changes
   and publish a list in the Federal Register of the                that will be effective as of the transfer date
   regulations continued. (316(c))                                  and to continue in phases after that date.
                                                                    (p. 16)
                                                                    OCC, FRB, and FDIC have begun to identify
                                                                    these regulations and will publish the required
                                                                    lists on or before the transfer date. (p. 21)
Status of Regulations Proposed or Not Yet Effective




                    Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                         Page 22
                         Appendix 2
                         Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



                  Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
    Any proposed regulation of OTS before the transfer               Status of Regulations Proposed or Not Yet                The Plan conforms to the
    date shall be deemed to be a proposed regulation of              Effective (Sec. 3.6.2., p. 22)                           section.
    OCC or FRB, as appropriate, according to the terms
    of the proposed regulation. Any interim or final                     Any regulation proposed by OTS in performing
    regulation of OTS published before the transfer date                 functions transferred by the Dodd-Frank Act
    but which has not become effective before that date,                 that has not been published as a final
    shall become effective as a regulation of OCC or                     regulation before the transfer date will be
    FRB, as appropriate, according to the terms of the                   considered to be a proposed regulation of OCC
    interim or final regulation. (316(d))                                or FRB, as appropriate. Any interim or final
                                                                         regulation that OTS published prior to the
                                                                         transfer date in performing functions
                                                                         transferred by the Dodd-Frank Act but which
                                                                         has not become effective before the transfer
                                                                         date will become effective as a regulation of
                                                                         OCC or FRB, as appropriate, unless modified,
                                                                         terminated or set aside, or superseded by OCC
                                                                         or FRB or a court of competent jurisdiction or
                                                                         operation of law.
    Section 318. Funding.
    Funding of OCC
    OCC may collect an assessment, fee, or other charge              Funding: Establishing an Assessment Process              The Plan conforms to the
    from any entity described in section 3(q)(1) of the              (Sec. 4.2., pp. 23–24)                                   section.
    Federal Deposit Insurance Act (12 U.S.C.
    1813(q)(1)),4 as determined necessary or appropriate             OCC (Sec. 4.2.1., p. 23)                                 With the transfer of OTS
    to carry out its responsibilities. In establishing the                                                                    functions, federal-chartered
    amount of an assessment, fee, or charge collected,                   Assessments are the primary means of funding         savings associations will pay
    OCC may take into account the nature and scope of                    for OCC and OTS.                                     assessments to OCC.
    the activities of the entity, the amount and type of                 In July 2010, OCC and OTS established a              Consistent with FDIC’s
    assets that the entity holds, the financial and                      bank assessment workgroup consisting of              current practice for state
    managerial condition of the entity, and any other                    economic, legal, and financial management            non-member insured

4
    These entities are national banks, federal branch or agency of a foreign bank, and federal savings associations.




                         Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 23
                         Appendix 2
                         Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



                  Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
    factor. Funds derived from any assessment, fee, or                   staff. It meets monthly to develop                   depository institutions for
    charge collected or payment made shall not be                        recommendations for the Comptroller of the           which it is the primary
    construed to be Government funds or appropriated                     Currency.                                            federal supervisor, state-
    monies, and shall not be subject to apportionment.                                                                        chartered savings
    OCC shall have sole authority to determine the                                                                            associations will not pay
    manner in which the obligations of the OCC shall be                                                                       assessments for
    incurred and its disbursements and expenses allowed                                                                       examinations to FDIC. We do
    and paid, except as provided in chapter 71 of title 5                                                                     not view this issue as one
    U.S.C. with respect to compensation.5 (318(b))                                                                            that directly impacts the
                                                                                                                              orderly transfer of OTS
                                                                                                                              functions.

                                                                                                                              According to an OCC official,
                                                                                                                              OCC will collect the lesser of
                                                                                                                              what the savings
                                                                                                                              associations would pay
                                                                                                                              under the OCC or OTS
                                                                                                                              assessment schedules for
                                                                                                                              the next two collections
                                                                                                                              (September 2011 and March
                                                                                                                              2012). After that, all savings
                                                                                                                              associations will be on the
                                                                                                                              same fee schedule as other
                                                                                                                              OCC-regulated institutions.
                                                                                                                              The subject of assessments
                                                                                                                              is planned to be included in a
                                                                                                                              Notice of Proposed
                                                                                                                              Rulemaking, which OCC
                                                                                                                              believes will be released in
                                                                                                                              the latter part of March

5
    Chapter 71 of title 5 U.S.C. covers federal employee collective bargaining and conditions of employment.




                         Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 24
                        Appendix 2
                        Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



                 Title III Requirements                                Joint Implementation Plan Sections                            OIG Analysis
                                                                                                                             2011.



    Funding of FRB
    FRB shall collect a total amount of assessments,                Funding: Establishing an Assessment Process              The Plan conforms to the
    fees, or other charges from the following companies             (Sec. 4.2., pp. 23–24)                                   section.
    that is equal to the total expenses FRB estimates are
    necessary or appropriate to carry out its supervisory           FRB (Sec. 4.2.3., p. 24)
    and regulatory responsibilities with respect to such
    companies:                                                          The Dodd-Frank Act directs FRB to offset only
                                                                        a portion of its total supervision and regulation
       all bank holding companies having total                          costs by charging fees to supervise
       consolidated assets of $50 billion or more;                      institutions.
       all savings and loan holding companies having                    With respect to savings and loan holding
       total consolidated assets of $50 billion or more;                companies, only those with assets of $50
       and                                                              billion or more will be subject to assessment.
       all nonbank financial companies supervised by                    FRB will determine costs to carry out its
       FRB pursuant to the Dodd-Frank Act.6 (318(c))                    supervisory and regulatory responsibilities,
                                                                        formulate a framework to apportion the costs
                                                                        through periodic assessments, and implement
                                                                        a process to collect the assessments.
                                                                        FRB has a team responsible for implementing
                                                                        these assessment fees and initial efforts to
                                                                        identify supervision and regulation costs are
                                                                        underway.
                                                                        FRB is considering a variety of approaches to
                                                                        differentiate these costs from total
                                                                        supervision.

6
 Under section 113 of the Dodd-Frank Act, the Financial Stability Oversight Council can make the determination that a U.S. nonbank financial company
or a foreign nonbank financial company shall be supervised by FRB if the company poses a threat to the financial stability of the United States.




                        Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                          Page 25
                   Appendix 2
                   Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                               Joint Implementation Plan Sections                          OIG Analysis
                                                                   FRB plans to provide notice for establishing
                                                                   the assessment framework before the
                                                                   collection of assessments in 2012.


Funding of FDIC
The cost of conducting any regular examination or              Funding: Establishing an Assessment Process              The Plan conforms to the
special examination of any depository institution may          (Sec. 4.2., pp. 23–24)                                   section.
be assessed by FDIC against the institution or entity
to meet the expenses of FDIC in carrying out such              FDIC (Sec. 4.2.2., p. 23)
examinations. (318(d))
                                                                   FDIC does not intend to charge assessments
                                                                   for its supervision of state-chartered savings
                                                                   associations, consistent with its current
                                                                   practice of not charging for its supervision of
                                                                   state nonmember banks.

                                         SUBTITLE B: TRANSITIONAL PROVISIONS
Section 321. Interim Use of Funds, Personnel, and Property of OTS.
In General and Agency Consultation
Before the transfer date, OCC, FDIC, and FRB shall             Transfer of Personnel (Sec. 2., p. 5)                    The Plan conforms to the
consult and cooperate with OTS to facilitate the                                                                        section.
orderly transfer of functions to OCC, FDIC, and FRB.               Senior managers from OCC, OTS, and FDIC
(321(a)(1))                                                        are meeting regularly to discuss the process
                                                                   for transferring functions and to identify the
                                                                   functions to transfer to each agency and the
                                                                   numbers of employees needed to perform and
                                                                   support those functions.

                                                               Transfer of Authority and Responsibilities
                                                               Regarding Oversight of [Savings and Loan Holding
                                                               Companies (Sec. 3.3., pp. 18-19)




                   Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                         Page 26
                   Appendix 2
                   Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                               Joint Implementation Plan Sections                          OIG Analysis

                                                               FRB is working closely with OTS, OCC, and FDIC
                                                               to implement the transfer of functions.
Before the transfer date, OCC, FDIC, and FRB shall             The Plan does not specifically address the interim       The Plan does not fully
determine jointly, from time to time, the amount of            transfer of funds to OCC.                                conform to the requirements
funds necessary to pay any expenses associated with                                                                     of the section; that is, what
the transfer of functions (including expenses for              Transfer of Funds (Sec. 4., pp. 23-24)                   interim transfer of OTS funds
employees, property, and administrative services)                                                                       may occur. We do not
during the period beginning on the date of enactment               OTS, OCC, FRB, and FDIC established a                consider this a significant
of the Dodd-Frank Act and ending on the transfer                   workgroup to address the transfer of remaining       omission.
date. (321(a)(2)(A))                                               funds that are not necessary to dispose of
                                                                   OTS’s affairs.                                       As discussed in the body of
When requested jointly by OCC, FDIC, and FRB to do                 The funds remaining on the day prior to              this report, we were told that
so before the transfer date, OTS shall pay to OCC,                 transfer will remain available to OTS for its        FDIC’s and FRB’s 2011
FDIC, and FRB, as applicable, such amounts as OCC,                 expenses relating to the agency’s functions          budgets include funding for
FDIC, and FRB jointly determine to be necessary.                   that are transferred.                                the transfer of OTS
(321(b)(1))                                                        On the transfer date, all OTS account balances       responsibilities. In addition,
                                                                   will be transferred to OCC. The agency               according to OCC, OCC has
                                                                   location code and associated fund symbols will       re-allocated approximately
                                                                   remain open at the Department of the Treasury        $3 million in its fiscal year
                                                                   pending clearance of all outstanding                 2011 budget to pay the
                                                                   transactions.                                        expenses associated with the
                                                                   FDIC determined that no funds will be                consolidation of certain OTS
                                                                   transferred from OTS to FDIC.                        functions before the transfer
                                                                   FRB determined that no funds will be                 date of July 21, 2011. OCC
                                                                   transferred from OTS to FRB.                         has also requested that OTS
                                                                                                                        pay an office space
                                                                                                                        termination fee of
                                                                                                                        approximately $350,000 for
                                                                                                                        office space in Atlanta,
                                                                                                                        Georgia, currently occupied
                                                                                                                        by OTS so that OTS staff




                   Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 27
                      Appendix 2
                      Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



              Title III Requirements                                 Joint Implementation Plan Sections                          OIG Analysis
                                                                                                                           can be physically
                                                                                                                           consolidated into OCC
                                                                                                                           facilities.

Before the transfer date, OCC, FDIC, and FRB shall                As discussed in other sections, the following are        The Plan conforms to the
determine jointly which employees are appropriate to              examples of employees or workgroups formed               section.
facilitate the orderly transfer of functions by this title.       from OCC, OTS, FDIC, and/or FRB to perform key
(321(a)(2)(B))                                                    tasks to facilitate the orderly transfer of functions,   According to OTS, OTS and
                                                                  such as the following:                                   OCC have agreed to, and are
When requested jointly by OCC, FDIC, and FRB to do                                                                         already, sharing staff
so before the transfer date, OTS shall detail to the                  OCC, OTS, and FDIC established transition            resources to facilitate the
OCC, FDIC, and FRB, as applicable, such employees                     teams to coordinate these efforts [p. 5].            transition. In some cases,
as OCC, FDIC, and FRB jointly determine to be                         Prior to the transfer date, FDIC will participate    OTS staff have been
appropriate. (321(b)(2))                                              in OTS examinations of state-chartered               officially detailed to OCC and
                                                                      savings associations with assets of more than        in other cases, OTS staff are
                                                                      $1 billion or a CAMELS composite rating of 3         providing informal assistance
                                                                      or lower [p. 17].                                    to facilitate the transition.
                                                                      FRB staff are reviewing FRB’s bank holding           That said, we were also told
                                                                      company supervision program to determine             by OTS that it has not been
                                                                      how to incorporate savings and loan holding          able to meet all of OCC’s
                                                                      companies into the program consistent with           informal requests for staffing
                                                                      HOLA [p. 18].                                        assistance because of the
                                                                      FRB established a working group to analyze           need to meet all its own
                                                                      OTS and FRB regulations and guidance                 responsibilities until the
                                                                      documents to identify differences and gaps [p.       transfer of functions. FDIC is
                                                                      19].                                                 prepared to invoke these
                                                                      OTS employees are working in various work            provisions, if necessary.
                                                                      groups with FRB, FDIC, and OCC. The Plan             According to FDIC, if it
                                                                      does not address whether these employees are         identifies a critical need to
                                                                      detailed.                                            detail OTS staff before the
                                                                      OTS, OCC, FRB, and FDIC, working through             transfer date, it will make
                                                                      the Federal Financial Institutions Examination       such a request




                      Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 28
                       Appendix 2
                       Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



                 Title III Requirements                               Joint Implementation Plan Sections                          OIG Analysis
                                                                      Council, plan to request public comment
                                                                      regarding burden estimates as a result of thrift
                                                                      industry reporting requirement changes7 [p.
                                                                      19].
                                                                      Federal banking agencies have worked closely
                                                                      with each other to deliberate consistent and
                                                                      appropriate reporting requirements for savings
                                                                      and loan holding companies and their
                                                                      subsidiary savings associations [p. 20].
                                                                      In July 2010 OCC and OTS established a bank
                                                                      assessment workgroup consisting of
                                                                      economic, legal, and financial management
                                                                      staff. It meets monthly to develop
                                                                      recommendations for the Comptroller of the
                                                                      Currency [p. 23].
                                                                      OTS, OCC, FRB, and FDIC established a
                                                                      workgroup to address the transfer of remaining
                                                                      funds that are not necessary to dispose of the
                                                                      OTS’s affairs [p. 23].
                                                                      FRB has a team responsible for implementing
                                                                      assessment fees, and initial efforts to identify
                                                                      supervision and regulation costs are underway
                                                                      [p. 24].
    Before the transfer date, OCC, FDIC, and FRB shall             The Plan does not address what property and              While the Plan does not
    determine jointly, from time to time, what property            administrative services are necessary to support         address the requirement of
    and administrative services are necessary to support           OCC, FDIC, and FRB during the interim period.            the section, we do not
    OCC, FDIC, and FRB during the period beginning on                                                                       consider this a significant
    the date of enactment of the Dodd-Frank Act and                                                                         omission in the Plan.

7
  The Federal Financial Institutions Examination Council is a formal interagency body empowered to prescribe uniform principles, standards, and report
forms for the federal examination of financial institutions by FRB, FDIC, the National Credit Union Administration, OCC, and OTS, and to make
recommendations to promote uniformity in the supervision of financial institutions.




                       Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 29
                        Appendix 2
                        Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



                 Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
    ending on the transfer date. (321(a)(2)(C))
                                                                                                                             An OCC official told us that
    When requested jointly by OCC, FDIC, and FRB to do                                                                       OCC has not requested, nor
    so before the transfer date, OTS shall make available                                                                    plans to request the use of
    to OCC, FDIC, and FRB, as applicable, such property                                                                      OTS's property prior to the
    and provide to OCC, FDIC, and FRB, as applicable,                                                                        transfer date.
    such administrative services as OCC, FDIC, and FRB
    jointly determine to be necessary. (321(b)(3))
    Section 322. Transfer of Employees.
    In General: OTS Employees
    Except for employees transferred to the Bureau of               Transfer of Personnel (Sec. 2., p. 5)                    The Plan generally conforms
    Consumer Financial Protection,8 all employees of OTS                                                                     to the section.
    shall be transferred to OCC or FDIC. (322(a)(1)(A))                 The OTS Director, the Comptroller of the
                                                                        Currency, and the FDIC Chairman will jointly         As of March 17, 2011, OCC
    OTS, OCC, and FDIC shall jointly determine the                      determine the number of OTS employees                had not finalized the
    number of OTS employees necessary to perform or                     necessary to perform and support the                 assignment of functions or
    support the functions that are transferred to OCC or                functions transferred to each agency.                the number of employees
    FDIC. (322(a)(1)(B)(i))                                             Senior managers from OCC, OTS, and FDIC              that will be required to carry
                                                                        are meeting regularly to discuss the process         out those functions.
                                                                        for transferring functions and to identify the
                                                                        functions to transfer to each agency and the         As discussed in the body of
                                                                        numbers of employees needed to perform and           this report, OTS expressed
                                                                        support those functions.                             concern that the
                                                                        Because the OTS functions relating to federal        assignments have not been
                                                                        savings associations make up the bulk of             finalized and that there will
                                                                        OTS’s operations, most of OTS’s                      not be enough positions with
                                                                        approximately 1,000 employees will transfer          the same functions for all

8
 Under Dodd-Frank Act, Section 1064 (a) (5)(A), Identifying Employees For Transfer, of Title X, Bureau of Consumer Financial Protection, which
establishes the Bureau of Consumer Financial Protection, requires the Bureau and the OTS Director to jointly determine the number of OTS employees
necessary to perform or support the consumer financial protection functions of OTS that are to be transferred to the Bureau a nd identify the OTS
employees for transfer to the Bureau.




                        Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                            Page 30
     Appendix 2
     Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



Title III Requirements                              Joint Implementation Plan Sections                          OIG Analysis
                                                     to OCC.                                              OTS transferred employees
                                                     OCC, OTS, and FDIC established transition            at OCC.
                                                     teams to coordinate these efforts.
                                                     OTS shared information related to employee           So far, FDIC has committed
                                                     data, work locations, salary and classification      to taking 53 current OTS
                                                     structures, benefits, and human resources            employees—43 examiners
                                                     policies and practices with both OCC and             and 8 staff to work on Thrift
                                                     FDIC.                                                Financial Reports, and 2
                                                     OCC, OTS, and FDIC human resources staffs            administrative law staff.
                                                     worked together to analyze this information,         More OTS employees may
                                                     identify differences in policies and practices,      transfer to FDIC based on
                                                     assess implementation impacts, and formulate         additional FDIC needs.
                                                     recommendations for the efficient and
                                                     effective integration of their workforces.           The Plan does not include
                                                                                                          any reference to the
                                                                                                          concurrent activities to
                                                                                                          identify the OTS employees
                                                                                                          to be transferred to the
                                                                                                          Bureau of Consumer
                                                                                                          Financial Protection. While
                                                                                                          we do not consider this a
                                                                                                          significant omission for the
                                                                                                          purpose of the Plan, the
                                                                                                          impact of the transfer of
                                                                                                          OTS employees to the
                                                                                                          Bureau of Consumer
                                                                                                          Financial Protection on the
                                                                                                          orderly transfer of OTS
                                                                                                          functions to OCC, FDIC, and
                                                                                                          FRB will be something we
                                                                                                          plan to assess as the Plan is
                                                                                                          implemented.




     Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 31
                    Appendix 2
                    Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                                Joint Implementation Plan Sections                           OIG Analysis
OTS, OCC, and FDIC shall jointly identify OTS                   Transferring Personnel (Sec. 2.1, pp. 6-7)               The Plan conforms to the
employees necessary to perform or support the                                                                            section. However, it must be
functions transferred to OCC or FDIC.                              OCC will assign OTS employees, to the extent          recognized that the Plan is at
(322(a)(1)(B)(ii))                                                 practicable, to OCC positions performing the          a high level and, as indicated
                                                                   same functions and duties that they performed         in the Plan and confirmed by
                                                                   prior to the transfer. OCC and OTS are working        our interviews with OCC,
                                                                   together to reach a consensus on how to               OTS, and FDIC officials,
                                                                   integrate all OTS grades into OCC pay bands.          there are still critical details
                                                                   FDIC plans a similar approach in integrating          to be worked out before an
                                                                   transferred staff into its existing organizational    orderly transfer of individual
                                                                   structure. FDIC and OTS have worked together          OTS employees can be
                                                                   to map their respective classification systems.       effectively accomplished.
                                                                   Available positions are being identified by
                                                                   location and grade, and FDIC plans to solicit the
                                                                   interest of OTS employees in these vacancies
                                                                   in early 2011. Final decisions on the transfer
                                                                   and placement of individual OTS employees will
                                                                   be made jointly by FDIC and OTS.
Employees Transferred: Service Periods Credited
For purposes of this section, periods of service with a         The Plan does not address this requirement.              We do not consider this a
federal home loan bank, a joint office of federal home                                                                   significant omission in the
loan banks, or a federal reserve bank shall be credited                                                                  Plan. In interviews, OCC and
as periods of service with a federal agency.                                                                             FDIC officials told us that
(322(a)(2))                                                                                                              this requirement will be met.
                                                                                                                         According to FDIC, it plans
                                                                                                                         to follow its standard
                                                                                                                         operating procedure of
                                                                                                                         reviewing transferred
                                                                                                                         employees’ Official Personnel
                                                                                                                         Files and other relevant
                                                                                                                         documentation to establish
                                                                                                                         or confirm a valid service




                    Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                             Page 32
                        Appendix 2
                        Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



                 Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
                                                                                                                             computation date.
    Timing of Transfers and Position Assignments
    Each employee to be transferred shall be transferred            Transferring Personnel (Sec. 2.1., pp. 6-7)              The Plan conforms to the
    not later than 90 days after the transfer date.                                                                          section.
    (322(b)(1))                                                        The transfer of OTS employees must occur no
                                                                       later than 90 days after July 21, 2011.
    Each employee to be transferred shall receive notice            Transferring Personnel (Sec. 2.1., pp. 6-7)              The Plan conforms to the
    of the position assignment of the employee not later                                                                     section.
    than 120 days after the effective date of the transfer              OCC and FDIC intend to provide initial
    of the employee. (322(b)(2))                                        notification letters to transferring OTS
                                                                        employees and meet with them as soon as
                                                                        possible, but not later than 60 days before the
                                                                        transfer date.9
                                                                        Final notification of position assignments with
                                                                        full details will follow no later than 120 days
                                                                        after the effective date of each employee’s
                                                                        transfer.
                                                                        OTS will provide regular updates to OCC and
                                                                        FDIC regarding current employees to ensure
                                                                        that both agencies are aware of changes due
                                                                        to retirements, transfers, resignations, or other
                                                                        actions. This information will ensure that each
                                                                        agency maintains accurate rosters through the
                                                                        transfer date.
    Employee Status and Eligibility/Equal Status and Eligibility
    The transfer of functions and employees and the            Safeguards to Ensure OTS Employees Are Not                    The Plan conforms to the
    abolishment of OTS shall not affect the status of the Unfairly Disadvantaged (Sec. 2.2., p. 7)                           requirements of these
    transferred employees as employees of an agency of                                                                       sections. Because OCC and

9
 Initial notices will describe: (a) how the transfer will occur, (b) the actual date of the transfer, (c) information on affecting the transfer through a
personnel action, (d) the corresponding “grade” level of the transferred employee’s new position, (e) duty location, (f) tentative organizational assignment,
and (g) available information on the position assignment.




                        Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                            Page 33
                   Appendix 2
                   Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                               Joint Implementation Plan Sections                          OIG Analysis
the United States under any provision of law.                      OCC and FDIC are committed to ensuring that          FDIC are agencies of the
(322(d))                                                           transferred OTS employees receive equitable          United States in accordance
                                                                   treatment with respect to their status, tenure,      with 12 U.S.C. §1 and
Each transferred OTS employee shall be placed in a                 pay, benefits, and accrued leave or vacation         12 U.S.C. §1819(b)(1),
position at OCC or FDIC with the same status and                   time for prior periods of service with a federal     respectively, transferred
tenure. (322(e)(1))                                                agency.                                              employees will retain status
                                                                   OCC and FDIC intend to properly document all         “as employees of an agency
To the extent practicable, each transferred employee               decisions regarding position and organizational      of the United States.”
shall be placed in a position at OCC or FDIC, as                   assignments of transferred employees to
applicable, responsible for the same functions and                 ensure that every transferred employee is            OCC has not finalized the
duties as the transferred employee had on the day                  accounted for, aligned properly into OCC or          work assignments yet. OCC
before the date on which the employee was                          FDIC, and retains the same pay, status, and          has reached out to OTS
transferred, in accordance with the expertise and                  tenure, and to the extent practicable,               employees through several
preferences of the transferred employee. (322(e)(2))               functions and duties in effect immediately           conference calls and
                                                                   preceding the effective date of the transfer.        employee profile forms to
                                                                                                                        obtain more information on
                                                               Transfer of Authority and Responsibilities               employees’ expertise and
                                                               Regarding Oversight of Federal Savings                   preferences.
                                                               Associations (Sec. 3.1., pp. 13-16)
                                                                                                                        However, as discussed in
                                                                   Positions created by OCC’s structural changes        other parts of this report,
                                                                   will be posted for internal competition and          OTS officials have repeatedly
                                                                   qualified OTS and OCC staff will be                  expressed concern about this
                                                                   encouraged to apply. OCC will post the new           process. Specifically, they
                                                                   management positions beginning in the first          noted the following issues
                                                                   quarter of calendar year 2011. The related           (1) the assignments have not
                                                                   analyst positions will be posted following the       been finalized and there will
                                                                   management selections.                               not be enough positions with
                                                                   OCC’s community bank supervision function            the same functions for all
                                                                   will continue to have four districts and be led      OTS transferred employees
                                                                   by the existing deputy comptrollers. With the        at OCC; (2) the proposed
                                                                   addition of new federal savings associations         number of potential




                   Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                          Page 34
                      Appendix 2
                      Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



               Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
                                                                      and examiners, each district’s span of control       management positions
                                                                      will increase by more than 50 percent. To help       available to OTS transferred
                                                                      manage the workload, OCC created a new               employees is lower than the
                                                                      position, Associate Deputy Comptroller               current number of OTS
                                                                      (AsDC), who will supervise Assistant Deputy          management positions,
                                                                      Comptrollers (ADC). Each region will have two        resulting in OTS managers
                                                                      AsDCs except the South, which will have              assigned to positions at least
                                                                      three.                                               one level lower than they
                                                                      OCC will add two ADCs for Midsize Bank               currently hold and lacking
                                                                      supervision—one in Chicago and one in                the same functions, and
                                                                      Washington, D.C.                                     duties;10 and (3) the senior-
                                                                      OCC will add a Senior Advisor for Thrift             level positions being created
                                                                      Supervision in each district office and in           by OCC to run the functions
                                                                      Special Supervision.                                 being transferred to OCC are
                                                                      The Deputy Comptroller for Thrift Supervision        being announced as
                                                                      (designated on November 3, 2010, pursuant            competitive between current
                                                                      to section 314(b) of the Dodd-Frank Act) will        OCC employees and former
                                                                      serve as an advisor to Midsize and Large Bank        OTS employees.
                                                                      Supervision.
                                                                      OCC will add ADC and team leader positions           In performing our
                                                                      as necessary and has already developed a             assessment, we also noted
                                                                      tentative list.                                      that OCC is creating senior-
                                                                      OCC will add two new field offices, Des              level positions to run those
                                                                      Moines and Seattle.                                  functions being transferred;
                                                                      Other OCC organizations (i.e., those with            the positions are being
                                                                      nonsupervisory functions) are working to             announced as competitive
                                                                      integrate transferring OTS employees.                between current OCC
                                                                                                                           employees and former OTS

10
  According to a letter from OCC’s First Senior Deputy Comptroller and Chief Counsel to the OTS Deputy Director dated October 25, 2010, the Dodd-
Frank Act does not require OCC to redesign and reorganize OCC’s structure so that OTS managers are guaranteed particular positions; and provides that
to the extent practicable, transferred employees will be placed in positions at OCC and FDIC responsible for the same functions and duties.




                      Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 35
                      Appendix 2
                      Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



               Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
                                                                  Transfer of OTS Examination Staff (FDIC) (Sec.           employees. It is important
                                                                  3.2.1., pp. 17-18)                                       that OCC ensure the
                                                                                                                           selection of personnel for
                                                                      FDIC is working closely with OTS and OCC to          these positions is done in
                                                                      identify the number of new examiner positions        compliance with 5 U.S.C.
                                                                      that will be required to perform the supervisory     §3503, Transfer of
                                                                      functions being transferred from OTS to FDIC         Functions.11
                                                                      as well as other FDIC examiner vacancies in
                                                                      locations where OTS examination staff are            Accordingly, there are still a
                                                                      currently assigned.                                  number of critical details of
                                                                      OTS employees will be given the opportunity          the Plan that need to be
                                                                      to express interest in these positions, and if       worked out before an orderly
                                                                      selected, will transfer to FDIC not later than       transfer of individual OTS
                                                                      90 days after July 21, 2011, as part of the          employees can be effectively
                                                                      transfer of function.                                accomplished.
                                                                      FDIC will fully integrate these employees into
                                                                      the FDIC’s existing organizational structure,        FDIC officials told us that
                                                                      and will assign responsibility for examinations      OTS employees transferring
                                                                      and other supervisory activities for each state-     to FDIC include the
                                                                      chartered savings association to the                 previously mentioned 8 OTS
                                                                      appropriate FDIC field office on the transfer        employees that work on
                                                                      date.                                                Thrift Financial Reports and
                                                                                                                           the 2 OTS administrative law
                                                                                                                           staff as well as voluntary
                                                                                                                           transfers under expression of
                                                                                                                           interest announcements.
 No Additional Certification Requirements
 An examiner who is a transferred employee shall not              Training and Certification of Employees (OCC)            The Plan generally conforms

11
  5 USC §3503 states that when a function is transferred from one agency to another, each competing employee in the function sh all be transferred to
the receiving agency for employment in a position for which he is qualified before the receiving agency may make an appointment from another source to
that position.




                      Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 36
                       Appendix 2
                       Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



                Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
 be subject to any additional certification requirements           (Sec. 3.1.2., p. 16)                                     to the section in that
 before being placed in a comparable position at OCC                                                                        transferring OTS employees
 or FDIC, if the examiner carries out examinations of                  OCC and OTS are reviewing each of their              are not subjected to
 the same type of institutions as an OCC or FDIC                       training and certification programs to ensure        additional certification
 employee as the employee was responsible for                          that existing and transferred employees have         requirements to continue
 carrying out before the date on which the employee                    the training and skills necessary to supervise       performing examinations of
 was transferred. (322(f))                                             both national banks and federal savings              savings associations.
                                                                       associations.
                                                                       Additional training may be required before           However, OTS officials
                                                                       transferred OTS employees supervise other            expressed concerns that
                                                                       types of institutions [p. 16].                       OCC plans to require
                                                                       The expectation is that on and after the             additional certification for
                                                                       transfer date, all examiners who serve as            certain transferred OTS
                                                                       examiners in charge of thrifts or banks will         examiners12 prior to them
                                                                       continue to perform these functions.                 being able to supervise
                                                                       OCC engaged a consultant to identify any             national bank examinations.
                                                                       differences between the OTS examiner                 Conversely, FDIC is not
                                                                       accreditation process and the OCC Uniform            requiring additional
                                                                       Commission Examination (UCE) process. The            certification for transferred
                                                                       study is underway and the consultant will            OTS examiners before they
                                                                       provide recommendations for coordinating the         are able to supervise an
                                                                       two processes.                                       FDIC-regulated bank
                                                                       New examiners hired by OTS in 2010 have              examination. As discussed
                                                                       accepted positions with OCC beginning in             under “Pay” below, OTS
                                                                       January 2011, and the agencies plan to enroll        officials are concerned with
                                                                       additional OTS employees in OCC national             the implication of OCC


12
  The affected OTS examiners hold the title of Examiner III and they are at the OTS TG-18 grade level, with supervisory responsibilities and the authority
to sign-off on reports of savings association examinations. According to OCC, being a commissioned national bank examiner demonstrates that the
individual has the requisite competence in not only the full range of safety and soundness issues, but also asset management, bank information systems,
and compliance. TG-18 examiners have been accredited in either safety and soundness, compliance, trust (asset management) or bank information
technology.




                       Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 37
                      Appendix 2
                      Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



               Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
                                                                      bank examiner training courses prior to the          placing these transferring
                                                                      transfer date.                                       OTS employees in a newly
                                                                      OCC’s National Bank Examiner commission              created pay band.
                                                                      will expand to ensure that each commissioned
                                                                      examiner has the skill set and credentials to        OCC has contracted with a
                                                                      lead examinations of both national banks and         consultant to study and
                                                                      federal savings associations.                        identify any differences
                                                                                                                           between the OTS examiner
                                                                  Training and Certification of Employees (FDIC)           accreditation process and the
                                                                  (Sec. 3.2.2., p. 18)                                     OCC Uniform Commission
                                                                                                                           Examination process and to
                                                                      FDIC will treat as commissioned FDIC                 provide recommendations.
                                                                      examiners all OTS examiners who transfer to          The consultant’s final work
                                                                      FDIC with OTS accreditation.                         product was not complete at
                                                                      FDIC will address any individual training gaps       the time of our report.
                                                                      that emerge after the transfer date through
                                                                      individual training and development plans.
 Personnel Actions Limited
 Each affected employee13 shall not, during the 30-               The Plan does not address the 30-month period            We consider this to be an
 month period beginning on the transfer date, be                  during which employees cannot be involuntarily           omission in the Plan that
 involuntarily separated, or involuntarily reassigned             separated or relocated.                                  should be addressed.
 outside his or her locality pay area. However, this
 requirement does not limit the right of OCC or FDIC                                                                       OCC officials told us that
 to separate an employee for cause or for                                                                                  while decisions have not
 unacceptable performance; terminate an appointment                                                                        been made, they expect
 to a position excepted from the competitive service                                                                       there will be circumstances
 because of its confidential policy-making, policy-                                                                        in which it will be necessary
 determining, or policy-advocating character; or                                                                           to involuntarily reassign an
 reassign an employee outside such employee’s                                                                              employee outside of his or

13
  Section 322(g)(1)(B) defines an affected employee as an employee transferred from OTS holding a permanent position on the day before the transfer
date; and an employee of OCC or FDIC holding a permanent position on the day before the transfer date.




                      Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 38
                    Appendix 2
                    Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
locality pay area when OCC or FDIC determines that                                                                       her geographic location for
the reassignment is necessary for the efficient                                                                          the efficient operation of the
operation of the agency. (322(g)(1)(A) and                                                                               agency.
322 (g)(2))
                                                                                                                         FDIC officials stated that
                                                                                                                         they could not think of any
                                                                                                                         circumstances that would
                                                                                                                         cause FDIC to take an
                                                                                                                         involuntary action other than
                                                                                                                         a matter related to
                                                                                                                         performance or employee
                                                                                                                         conduct.


Pay
During the 30-month period beginning on the date on             Protection of Pay, Status, Tenure, Functions and         The Plan conforms to the
which the employee was transferred, a transferred               Duties (Sec. 2.3., pp. 7-8)                              section. According to the
employee shall be paid at a rate that is not less than                                                                   Plan, transferring OTS
the basic rate of pay, including any geographic                     Neither OCC nor FDIC will reduce a transferred       employees are to be paid at
differential, that the transferred employee received                employee’s pay during the 30-month period            the same basic rate of pay
during the pay period immediately preceding the date                except in the limited circumstances specifically     for the 30-month period after
on which the employee was transferred. If the                       permitted by the Dodd-Frank Act.                     the transfer date.
employee was receiving a higher rate of basic pay on                OCC and FDIC will ensure the employees’ pay
a temporary basis (because of a temporary                           is not adversely affected.                           However, as discussed
assignment, temporary promotion, or other temporary                                                                      above under “No Additional
action) immediately before the transfer, the agency             Incorporation Into the OCC Pay System (Sec.              Certification Requirements,”
may reduce the rate of basic pay on the date the rate           2.7.1., pp. 10-11)                                       OTS officials expressed
would have been reduced but for the transfer, and                                                                        concerns that OCC plans to
the protected rate for the remainder of the 30-month                Transferred employees will be paid at a rate         require additional
period will be the reduced rate that would have                     that is not less than the basic rate of pay,         certification for certain
applied but for the transfer. However, OCC or FDIC                  including any geographic differential that the       transferred OTS examiners
may reduce the rate of basic pay of a transferred                   transferred employees received during the pay        prior to them being able to




                    Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                            Page 39
                      Appendix 2
                      Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



               Title III Requirements                                Joint Implementation Plan Sections                           OIG Analysis
 employee for cause, including unacceptable                           period immediately preceding the date the            supervise national bank
 performance, or with the consent of the transferred                  employee is transferred.                             examinations. OTS’s concern
 employee. (322(h)(1) and 322(h)(2))                                  Despite the pay structures of OCC and OTS            is that OCC plans to assign
                                                                      differing significantly, OCC’s salary structure      these TG-18 examiners to a
                                                                      can accommodate the transfer of all                  newly created pay band
                                                                      employees from the OTS salary structure.             within OCC. This newly
                                                                      When a transferred employee’s salary fits            created pay band provides
                                                                      within the assigned OCC pay band range for           for the same pay as the
                                                                      the assigned position, OCC will set the salary       current OTS pay band, but
                                                                      within that OCC pay band and at the same             with a lower salary range
                                                                      level the transferred employee received during       than what would have been
                                                                      the pay period immediately prior to the              the case had OCC accepted
                                                                      effective date of the transfer.                      the OTS accreditation. The
                                                                      Where a transferred employee’s salary                examiners are to remain in
                                                                      exceeds the OCC pay band range for the               that newly created pay band,
                                                                      position assignment, OCC will assure that the        until additional certification is
                                                                      pay protection required by the Dodd-Frank Act        obtained.14 See appendix 3
                                                                      is invoked and applied accordingly.                  for a description of OCC’s
                                                                      OCC and OTS compensation policies and                planned new pay band for
                                                                      mechanisms for permanent adjustments to              certain transferred OCC
                                                                      base pay and other types of pay increases also       employees.
                                                                      differ. OCC will maintain its human resources
                                                                      policies, including compensation, merit
                                                                      increases, and merit bonuses to recognize and
                                                                      incentivize performance. OCC continues to
                                                                      work closely with OTS human resources
                                                                      professionals to identify and resolve
                                                                      differences in these policies.


14
  OTS examiners at the OTS TG-19 grade level hold certifications that are commensurate to OCC’s national bank examiner certifications. These OTS
examiners are to be transferred into OCC at the level consistent with the OCC examiner and will not be placed in the newly created pay band.




                      Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                             Page 40
                    Appendix 2
                    Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
                                                                Incorporation Into the FDIC Pay System (Sec.
                                                                2.7.2., pp. 11-12)

                                                                    Despite differences between FDIC and OTS
                                                                    classification and pay systems, FDIC is
                                                                    confident that its salary structures can, with
                                                                    limited adjustments, accommodate the OTS
                                                                    salary structures. FDIC will map existing OTS
                                                                    positions to the FDIC classification and pay
                                                                    system as quickly as possible.
                                                                    Where a transferred employee’s salary fits
                                                                    within the assigned FDIC pay range, FDIC will
                                                                    set the salary at the same level within that
                                                                    FDIC pay grade.
                                                                    Where a transferred employee’s salary
                                                                    exceeds the maximum salary for the assigned
                                                                    FDIC pay range, FDIC will maintain the
                                                                    employee’s higher salary in accordance with
                                                                    Dodd-Frank Act requirements.
                                                                    FDIC will maintain its established policies
                                                                    regarding performance-based base pay
                                                                    increases and bonuses/lump sum payments to
                                                                    recognize and incentivize performance.
                                                                    FDIC will work with OTS human resources
                                                                    professionals as needed to identify and resolve
                                                                    differences in policies.
Retirement Benefits for Transferred Employees
Each transferred employee shall remain enrolled in              Protection and Continuation of Retirement                The Plan conforms to the
the retirement plan of the transferred employee, for            Benefits (Sec. 2.4., p. 8)                               section. We noted that
as long as the transferred employee is employed by                                                                       according to OTS’s audited
OCC or FDIC. (322(i)(1)(A)(i))                                      The majority of OCC, FDIC, and OTS                   fiscal year 2010 financial
                                                                    employees participate in one of two retirement       statements, FIRF had an



                    Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                         Page 41
     Appendix 2
     Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



Title III Requirements                              Joint Implementation Plan Sections                         OIG Analysis
                                                     systems administered by the Office of                estimated shortfall as of
                                                     Personnel Management (OPM)—the Civil                 July 1, 2010, of $74.7
                                                     Service Retirement System (CSRS) and the             million. According to OTS,
                                                     Federal Employees Retirement System (FERS).          OTS and OCC are discussing
                                                     Approximately 375 current OTS employees              options for managing the
                                                     participate in a third system, the Financial         underfunded FIRF.
                                                     Institutions Retirement Fund (FIRF), and
                                                     approximately 460 retirees receive a FIRF
                                                     annuity.
                                                     Transferred OTS employees covered by CSRS
                                                     or FERS will remain in those retirement
                                                     systems.
                                                     Because OTS serves as the benefit
                                                     administrator for OTS retirees—such as OPM
                                                     serves as the CSRS and FERS benefit
                                                     administrator for federal agencies—OCC will
                                                     assume that same benefit administrator role
                                                     for OTS/FIRF employees on the transfer date.
                                                     OCC has also agreed to provide retirement
                                                     benefits administration for OTS/FIRF
                                                     employees who transfer to FDIC and the
                                                     Bureau of Consumer Financial Protection.
                                                     OCC will modify its financial systems to
                                                     accommodate any additional transactions
                                                     required to support FIRF entitlements.

                                                 Supplemental Retirement Benefits (Sec. 2.5., pp.
                                                 8-9)

                                                     Both OCC and FDIC have additional retirement
                                                     savings programs for their employees that will
                                                     be available to transferred OTS employees.




     Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                        Page 42
                      Appendix 2
                      Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



               Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
                                                                     Transferred employees may participate and roll
                                                                     over OTS-unique retirement savings programs
                                                                     into these programs.15
 OCC or FDIC, as appropriate, shall pay any employer              Protection and Continuation of Retirement                The Plan conforms to the
 contributions to the existing retirement plan of each            Benefits (Sec. 2.4., p. 8)                               section.
 transferred employee, as required under each such
 existing retirement plan.16 (322(i)(1)(A)(ii))                       OCC will modify its payroll system to include        According to OCC officials,
                                                                      an OTS/FIRF identifier to ensure that OCC            OCC has begun working with
                                                                      makes accurate contributions to the FIRF             the National Finance Center,
                                                                      account.                                             which is OCC’s and FDIC’s
                                                                      Agencies receiving transferred OTS employees         payroll processing provider,
                                                                      will make payroll and financial systems              to complete programming
                                                                      adjustments similar to those of OCC to               changes necessary for the
                                                                      accommodate FIRF entitlements of these               administration of OTS
                                                                      transferred OTS employees and will coordinate        benefits.
                                                                      with OCC to ensure integrated benefits
                                                                      delivery to these employees.
 Benefits Other Than Retirement Benefits
 During the First Year
 For 1 year following the transfer date, each                     Protection and Continuation of Benefits Other            The Plan conforms to the
 transferred employee may retain membership in any                Than Retirement (Sec. 2.6., pp. 9-10)                    section regarding
 employee benefit program (other than a retirement                                                                         membership.
 benefit program) of the agency from which the                        OTS employees will remain in OTS benefits
 employee was transferred, including any dental,                      programs as currently constituted for the first      An OCC official told us that
 vision, long term care, or life insurance program to                 year after transfer.                                 OCC will comply with this

15
   FDIC and OCC provide an automatic contribution of 1 percent of pay and an additional matching contribution up to 4 percent of pay to eligible
employees’ federal Thrift Savings Plan accounts. In addition, FDIC and OCC employees can contribute a portion of their base pay to a sponsored tax-
deferred 401(k) savings plan. FDIC and OCC provide eligible employees with a maximum matching contribution of 5 percent and 3 percent, respectively.
16
   Section 322 (i)(1)(B) defines an existing retirement plan, with respect to a transferred employee, as the retirement plan (including FIRF), and any
associated thrift savings plan, of the agency from which the employee was transferred in which the employee was enrolled on the day before the date on
which the employee was transferred.




                      Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 43
                    Appendix 2
                    Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



              Title III Requirements                               Joint Implementation Plan Sections                          OIG Analysis
which the employee belonged on the day before the                   OCC and FDIC will jointly explore options for        provision.
transfer date. OCC or FDIC, as appropriate, shall pay               the most efficient administration of OTS’s life
any employer cost required to extend coverage in the                insurance benefit program during the interim         FDIC officials told us that
benefit program to the transferred employee as                      period.                                              FDIC will offer transferred
required under that program or negotiated                           The Plan does not address the requirement to         OTS employees the option to
agreements. (322(i)(2)(A))                                          pay any employer costs required to extend            change to FDIC benefits. The
                                                                    coverage in the benefit program to the               transferred OTS employees
                                                                    transferred employee, although that could be         will have 30 days to make
                                                                    inferred since it does include the provision that    their decision, as would any
                                                                    OTS employees will remain in OTS benefits            new FDIC employee. If OTS
                                                                    programs for the first year.                         employees elect to retain
                                                                                                                         their OTS benefits for 1 year,
                                                                                                                         FDIC will comply with this
                                                                                                                         provision as set forth.
Dental, Vision, or Life Insurance After the First Year
If, after the 1-year period beginning on the transfer           Protection and Continuation of Benefits Other            The Plan conforms to the
date, OCC or FDIC determines that OCC or FDIC will              Than Retirement (Sec. 2.6., pp. 9-10)                    section.
not continue to participate in any dental, vision, or
life insurance program of an agency from which an                   After 1 year, all employees will transition to
employee was transferred, a transferred employee                    OCC and FDIC benefit programs.
who is a member of the program may, before the                      Human resource specialists from OCC, FDIC,
decision takes effect and without regard to any                     and OTS completed a side-by-side analysis
regularly scheduled open season, elect to enroll in the             comparing the benefits at the three agencies.
enhanced dental benefits program established under                  They determined that the following programs
chapter 89A, the vision benefits established under                  are comparable: Federal Employees Health
chapter 89B, and the Federal Employees' Group Life                  Benefits, Federal Employees Group Life
Insurance Program 87 (without regard to any                         Insurance, and employee-paid programs (Long
requirement of insurability) established under chapter              Term Care insurance and the Federal
87. These chapters are part of 5 U.S.C. (322(i)(2)(B))              Employees Dental and Vision Insurance
                                                                    Program (federal dental and vision insurance).
Long Term Care Insurance After the First Year
If, after the 1-year period beginning on the transfer           Protection and Continuation of Benefits Other            The Plan conforms to the



                    Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 44
                   Appendix 2
                   Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                               Joint Implementation Plan Sections                          OIG Analysis
date, OCC or FDIC determines that OCC or FDIC, as              Than Retirement (Sec. 2.6., pp. 9-10)                    section.
appropriate, will not continue to participate in any
long term care insurance program of an agency from                 After one year, all employees will transition to
which an employee transferred, a transferred                       OCC and FDIC benefit programs.
employee who is a member of such a program may,                    Human resource specialists from OCC, FDIC,
before the decision takes effect, elect to apply for               and OTS completed a side-by-side analysis and
coverage under the Federal Long Term Care                          determined the benefits of long term care
Insurance Program established under chapter 90 of                  insurance programs at the three agencies are
5 U.S.C., under the underwriting requirements                      comparable.
applicable to a new active workforce member.
(322(i)(2)(C))
Contribution of Transferred Employee
A transferred employee who is enrolled in a plan                   The Plan does not specifically state that a          We do not consider this a
under the Federal Employees Health Benefits Program                transferred employee who is enrolled in a plan       significant omission in the
shall pay any employee contribution. OCC or FDIC,                  under the Federal Employees Health Benefits          Plan. Employee and employer
as applicable, shall pay any difference in cost                    Program will pay any employee contribution or        contributions under the
between the employee contribution required under                   that OCC or FDIC will pay any difference in          Federal Employees Health
the plan provided to transferred employees by the                  cost.                                                Benefits Program are set by
agency from which the employee transferred and the                                                                      law. OCC, FDIC, and OTS
plan provided by OCC or the FDIC, as the case may                  The Plan also does not address OCC or FDIC’s         are currently part of the
be. OCC or FDIC shall transfer to the Employees                    responsibility to pay any difference in cost         program; thus, any
Health Benefits Fund, an amount determined by                      between the employee contribution required           contributions paid by OTS
OPM, after consultation with OCC and FDIC, as the                  under the plan and the plan provided by OCC          and its employees will carry
case may be, and the Office of Management and                      or FDIC, respectively.                               over to OCC and FDIC.
Budget, to be necessary to reimburse the Employees
Health Benefits Fund for the cost to the fund of                   The Plan does not address the transfer of            According to an OCC official,
providing any benefits under this subparagraph that                funds from OCC or FDIC to the Employees              OCC will comply with these
are not otherwise paid for by a transferred employee               Health Benefits Fund.                                provisions.
under clause (i). (322(i)(2)(D))
                                                                                                                        According to an FDIC
                                                                                                                        official, FDIC will comply
                                                                                                                        with these provisions. FDIC



                   Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                          Page 45
                   Appendix 2
                   Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                               Joint Implementation Plan Sections                          OIG Analysis
                                                                                                                        has arranged for OCC to
                                                                                                                        administer OTS legacy
                                                                                                                        benefit programs for OTS
                                                                                                                        staff that transfer to
                                                                                                                        FDIC. FDIC will reimburse
                                                                                                                        OCC for the relevant costs.
Special Provisions To Ensure Continuation of Life Insurance Benefits:
An annuitant who is enrolled in a life insurance plan   The Plan does not address these provisions.                     We do not consider this a
administered by an agency from which employees are                                                                      significant omission of the
transferred on the day before the transfer date shall                                                                   Plan. An OCC official stated
be eligible for coverage by a life insurance plan under                                                                 that OCC is obtaining
5 U.S.C., or by a life insurance plan established by                                                                    consulting advice as to how
OCC or FDIC, as applicable, without regard to any                                                                       to handle the retiree life
regularly scheduled open season or any requirement                                                                      insurance for annuitants.
of insurability. A transferred employee shall pay any                                                                   According to an FDIC
employee contribution required by the plan. OCC or                                                                      official, since OCC will be
FDIC shall pay any difference in cost between the                                                                       administering FIRF, FDIC will
benefits provided by the agency from which the                                                                          not have any annuitant
employee transferred and the benefits provided.                                                                         issues related to the transfer
Additionally, OCC or FDIC shall transfer to the                                                                         of OTS powers and
Federal Employees' Group Life Insurance Fund, an                                                                        authorities. FDIC extends
amount determined by OPM, after consultation with                                                                       one FDIC-specific benefit to
OCC and FDIC, to be necessary to reimburse the                                                                          annuitants—dental
Federal Employees' Group Life Insurance Fund for the                                                                    insurance—and any
cost to the Federal Employees' Group Life Insurance                                                                     transferred OTS staff will be
Fund of providing benefits not otherwise paid for by                                                                    treated the same as any
a transferred employee. (322(i)(2)(E))                                                                                  other FDIC employee for
                                                                                                                        purposes of qualifying for
                                                                                                                        that benefit at retirement.
Incorporation Into Agency Pay System
Not later than 30 months after the transfer date,              Transferring Personnel (Sec. 2.1., p. 6)                 The Plan conforms to the
OCC and FDIC shall place each transferred employee                                                                      section.



                   Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                            Page 46
                   Appendix 2
                   Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                               Joint Implementation Plan Sections                    OIG Analysis
into the established pay system and structure of the               OTS employees transferring to OCC and FDIC
appropriate employing agency. (322(j))                             will be placed into OCC’s and FDIC’s
                                                                   established pay systems and structures as
                                                                   soon as feasible following the date of transfer,
                                                                   but not later than 30 months after the transfer
                                                                   date.
                                                                   OCC and FDIC determined that their current
                                                                   pay systems, with some possible
                                                                   modifications, can accommodate OTS’s salary
                                                                   structure. However, the 30-month protection
                                                                   of pay may necessitate the retention of
                                                                   separate systems and structures for a period
                                                                   of time.

                                                               Incorporation Into the OCC Pay System (Sec.
                                                               2.7,1., pp. 10-11)

                                                                   Despite the pay structures of OCC and OTS
                                                                   differing significantly, OCC salary structure
                                                                   can accommodate the transfer of all
                                                                   employees from the OTS salary structure.

                                                               Incorporation Into the FDIC Pay System (Sec.
                                                               2.7.2., pp. 11-12)

                                                                   Despite differences between FDIC and OTS
                                                                   classification and pay systems, FDIC is
                                                                   confident that its salary structures can, with
                                                                   limited adjustments, accommodate the OTS
                                                                   salary structures.
                                                                   FDIC plans to convert transferred OTS
                                                                   employees to its pay system as soon as




                   Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                  Page 47
                   Appendix 2
                   Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                               Joint Implementation Plan Sections                          OIG Analysis
                                                                   feasible after the transfer date and well before
                                                                   the 30-month deadline.
Equitable Treatment
OCC and FDIC:                                                  Safeguards to Ensure OTS Employees Are Not               The Plan conforms to these
  may not take any action that would unfairly                  Unfairly Disadvantaged (Sec. 2.2., p. 7)                 requirements. However, as
  disadvantage a transferred employee relative to                                                                       stated above, under “No
  any other OCC or FDIC employee on the basis of                   No changes will be adopted that in any way           Additional Certification
  prior employment by OTS.                                         result in an unfair disadvantage to transferred      Requirements,” OTS officials
  may take such action as is appropriate in an                     employees.                                           expressed concerns that
  individual case to ensure that a transferred                     OCC and FDIC are committed to ensuring that          OCC plans to require
  employee receives equitable treatment, with                      transferred OTS employees receive equitable          additional certification for
  respect to the status, tenure, pay, benefits (other              treatment with respect to their status, tenure,      certain transferred OTS
  than benefits under programs administered by                     pay, benefits, and accrued leave or vacation         examiners prior to them
  OPM), and accrued leave or vacation time for                     time for prior periods of service with a federal     being able to supervise
  prior periods of service with any federal agency of              agency.                                              national bank examinations.
  the transferred employee.                                        Both OCC and FDIC leadership and human               Conversely, FDIC is not
  shall, jointly with OTS, develop and adopt                       resources employees have worked with their           requiring additional
  procedures and safeguards designed to ensure                     OTS counterparts to review human resources           certification for transferred
  that these requirements are met.                                 policies, identify gaps and differences in those     OTS examiners before they
  shall conduct a study detailing the position                     policies, and assess impacts of those                are able to supervise an
  assignments of all employees transferred,                        differences. Based on this analysis, OCC and         FDIC-regulated bank
  describing the procedures and safeguards                         FDIC plan to continue existing human                 examination. OTS officials
  adopted, and demonstrating that the requirements                 resources policies. The two agencies will            are concerned with the
  of this subsection have been met; and shall, not                 consider future changes to policies where they       implication of OCC placing
  later than 1 year after the transfer date, submit a              benefit the combined organizations and their         these transferring OTS
  copy of such study to Congress. (322(k))                         employees. No changes will be adopted that in        employees in a newly
                                                                   any way result in an unfair disadvantage to          created pay band.
                                                                   transferred employees.
                                                                   OCC and FDIC will submit a study to Congress
                                                                   within 365 days after the transfer date
                                                                   describing and demonstrating the procedures
                                                                   and safeguards adopted by the agencies to



                   Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 48
                        Appendix 2
                        Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



                Title III Requirements                                 Joint Implementation Plan Sections                            OIG Analysis
                                                                        ensure that they meet these requirements.
 Section 323. Property Transferred17.
 No later than 90 days after the transfer date, all                 Transfer of Property (Sec. 5, pp. 25-27)                 The Plan conforms to the
 property of OTS (other than property described under                                                                        section.
 paragraph (b)(2)) that OCC and FDIC jointly                            The agencies will complete the property
 determine is used, on the day before the transfer                      transfer no later than 90 days after the
 date, to perform or support the functions of OTS                       transfer date.
 transferred to OCC or FDIC, shall be transferred to
 OCC or FDIC in a manner consistent with the transfer               Transfer of the OTS Building and Real Property
 of employees. (323(b)(1))                                          (Sec. 5.1., p. 25)

                                                                        The agencies have jointly determined that
                                                                        ownership of all buildings and real property
                                                                        will transfer to OCC.
                                                                        FDIC will house transferring OTS employees in
                                                                        current FDIC facilities.
                                                                        OCC’s legal staff is working to determine
                                                                        appropriate transfers of title and transfers of
                                                                        leases to OCC effective July 21, 2011.

                                                                    Transfer of Information Technology Assets,
                                                                    Systems, and Infrastructure (Sec. 5.2., p. 25)

                                                                        OCC, FDIC, and OTS chief information officers
                                                                        are working closely together to develop a plan
                                                                        to integrate the agencies’ assets and systems.
                                                                        The agencies will follow applicable policies and
                                                                        procedures to ensure that all assets are

17
   For purposes of this section, the term property includes all real property (including leaseholds) and all personal property, includi ng computers, furniture,
fixtures, equipment, books, accounts, records, reports, files, memoranda, paper, reports of examination, work papers, and correspondence related to such
reports, and any other information or materials.




                        Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                              Page 49
     Appendix 2
     Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



Title III Requirements                              Joint Implementation Plan Sections                    OIG Analysis
                                                     transferred in a structured and secure manner
                                                     to support transferred functions and
                                                     employees.

                                                 OCC (Sec. 5.2.1., p. 25)

                                                     OCC and OTS have developed an analysis
                                                     framework and completed a comprehensive
                                                     inventory of IT assets and systems by
                                                     business function.
                                                     OCC staff is analyzing both agencies’ systems,
                                                     from the business and technical perspective to
                                                     recommend the best course of action for each
                                                     system with the goals of integrating and
                                                     aligning business and reducing duplication as
                                                     much and as quickly as possible.
                                                     OCC anticipates that some information
                                                     systems may need to run in parallel for an
                                                     initial period to ensure continuity and
                                                     availability.
                                                     The Plan will also ensure that core OCC
                                                     administrative systems and IT infrastructure
                                                     services, such as time and attendance and
                                                     e-mail, are available to all incoming OTS staff
                                                     by the transfer date.
                                                     OCC will allot sufficient time for training OTS
                                                     and OCC employees on any new systems as
                                                     necessary.

                                                 FDIC (Sec. 5.2.2., pp. 25-26)

                                                     FDIC and OTS staff will work together to




     Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                  Page 50
     Appendix 2
     Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



Title III Requirements                              Joint Implementation Plan Sections                    OIG Analysis
                                                     determine how best to integrate supervisory
                                                     and administrative information from OTS
                                                     systems into existing FDIC automated
                                                     information systems, with a goal of
                                                     accomplishing this transition as quickly as
                                                     possible.
                                                     The staff will also develop guidelines for the
                                                     retention and archiving of relevant OTS data to
                                                     ensure that it continues to be available, as
                                                     needed, in the future.
                                                     FDIC does not anticipate transferring from
                                                     OTS any IT systems, equipment, or other
                                                     infrastructure. To ensure compatibility, FDIC
                                                     will issue standard FDIC IT equipment and
                                                     software to all OTS employees transferring to
                                                     FDIC.

                                                 Transfer of Records (Sec. 5.3., pp. 26-27)

                                                     By the transfer date, OTS will update and
                                                     verify inventories and locations of paper and
                                                     electronic records for both current and active
                                                     records as well as archived records.
                                                     OTS records and information regarding OTS
                                                     functions and activities will be transferred to
                                                     OCC, FDIC and FRB.
                                                     OTS, OCC, and FDIC records management
                                                     staffs established a joint team that is working
                                                     to identify the types of records and the related
                                                     comprehensive records schedules for both
                                                     agencies, and to identify and catalogue the
                                                     number and physical location of all records.




     Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                  Page 51
                       Appendix 2
                       Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



                Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
                                                                      The joint team is working directly with the
                                                                      National Archives and Records Administration
                                                                      (NARA) to determine how best to establish a
                                                                      new, joint comprehensive records schedule for
                                                                      OCC and its expanded responsibilities.
                                                                      Team members are jointly preparing a plan for
                                                                      physically transferring OTS records, as
                                                                      appropriate, to OCC, FDIC, and FRB
                                                                      recordkeeping facilities, NARA facilities and
                                                                      the Federal Records Centers.
 All books, accounts, records, reports, files,                     Transfer of Property (Sec. 5., pp. 25-27)                The Plan conforms to the
 memoranda, papers, documents, reports of                                                                                   section.
 examination, work papers, and correspondence of                   FRB (Sec. 5.2.3., p. 26)
 OTS that OCC, FDIC, and FRB jointly determine is
 used, on the day before the transfer date, to perform                 FRB is working with OTS on direct access to
 or support the functions of the OTS transferred to                    OTS systems and official records18 to the
 FRB under this title shall be transferred to FRB in a                 extent consistent with the Dodd-Frank Act,
 manner consistent with the purposes of this title.                    other applicable law, and other legal
 (323(b)(2))                                                           constraints.
                                                                       FRB has access to comprehensive OTS
                                                                       databases containing structure and financial
                                                                       data.
                                                                       FRB is working with FDIC and OCC to ensure
                                                                       comprehensive bilateral information sharing
                                                                       and coordination for thrift subsidiaries
                                                                       comparable to that in place for bank holding
                                                                       companies’ bank subsidiaries.
                                                                       An interagency team will handle the
                                                                       supervisory information requirements in a

18
    The official records include supervisory ratings, enforcement actions, other assessments, examination reports and related work papers, application
filings, and all other communications with savings and loan holding companies.




                       Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                           Page 52
                    Appendix 2
                    Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
                                                                    similar manner, preparing for automated
                                                                    transfers of key OTS supervisory information
                                                                    to FRB to be incorporated in FRB automated
                                                                    systems.

                                                                Transfer of Records (Sec. 5.3., pp. 26-27)

                                                                    By the transfer date, OTS will update and
                                                                    verify inventories and locations of paper and
                                                                    electronic records for both current, active
                                                                    records as well as archived records.
                                                                    FRB is coordinating with OTS to transfer
                                                                    records necessary to effectively carry out its
                                                                    supervisory responsibilities.

                                                                Transfer of Other Assets (Sec. 5.5., pp. 27)

                                                                   FDIC and FRB have determined that they do
                                                                   not require any additional assets not described
                                                                   in the plan from OTS.
                                                                   OCC recently completed an inventory of
                                                                   accountable property and has updated its
                                                                   asset management system to reflect the
                                                                   current status.
                                                                   OTS plans to conduct a complete inventory in
                                                                   the April/May 2011 timeframe of all its
                                                                   accountable property. Once that effort is
                                                                   completed, OCC will enter the appropriate
                                                                   assets in its asset management system for
                                                                   continued accountability.
Each contract, agreement, lease, license, permit, and           Transferring Contracts (Sec. 5.4., p. 27)                The Plan conforms to the
similar arrangement relating to property transferred to                                                                  section.




                    Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                         Page 53
                     Appendix 2
                     Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



              Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
OCC or FDIC by this section shall be transferred to                 OTS recently updated and verified inventories
OCC or FDIC, as appropriate, together with the                      of all open and active leases of real and
property to which it relates. (323(c))                              personal property, purchase orders, and
                                                                    contracts.
                                                                    OTS leases, purchase orders, and contracts
                                                                    will transfer to OCC; FDIC does not anticipate
                                                                    assuming responsibility for any OTS leases,
                                                                    contracts, or purchase orders
                                                                    OCC’s acquisition management staff will
                                                                    review all active actions to identify and
                                                                    address any redundancies and will work with
                                                                    OTS to determine which contracts provide
                                                                    OCC the best support and represent the best
                                                                    value.
                                                                    OCC’s administrative and internal law
                                                                    department staff will review contract
                                                                    modification actions for legal sufficiency, as
                                                                    necessary.
Property identified for transfer shall not be altered,           The plan does not address this provision.                We do not consider this a
destroyed, or deleted before transfer. (323(d))                                                                           significant omission.
Section 324. Funds Transferred.
The funds that, on the day before the transfer date,             Transfer of Funds (Sec. 4., pp. 23-24)                   The Plan conforms to the
OTS (in consultation with OCC, FDIC, and FRB)                                                                             section.
determines are not necessary to dispose of the affairs               OTS, OCC, FRB, and FDIC established a
of OTS and are available to OTS to pay OTS                           workgroup to address the transfer of remaining
expenses relating to the OTS functions transferred                   funds that are not necessary to dispose of
shall be transferred to OCC, FDIC, and FRB, as the                   OTS’s affairs.
case may be, on the transfer date. (324)                             The funds remaining on the day prior to
                                                                     transfer will remain available to OTS for its
                                                                     expenses relating to the agency’s functions
                                                                     that are transferred.
                                                                     On the transfer date, all OTS account balances



                     Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                          Page 54
                    Appendix 2
                    Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
                                                                    will be transferred to OCC. The agency
                                                                    location code and associated fund symbols will
                                                                    remain open at the Department of the Treasury
                                                                    pending clearance of all outstanding
                                                                    transactions.
                                                                    FDIC determined that no funds will be
                                                                    transferred from OTS to FDIC.
                                                                    FRB determined that no funds will be
                                                                    transferred from OTS to FRB.
       Section 325. Disposition of Affairs.
During the 90-day period beginning on the transfer              Disposition of OTS Affairs (Sec. 6.3., p. 28)            The Plan conforms to the
date, the OTS Director shall, solely for the purpose of                                                                  section.
winding up the affairs of OTS relating to any function              The Acting OTS Director and a small cadre of
transferred to OCC, FDIC, or FRB:                                   staff will make a final disposition of the affairs
    manage the employees of OTS who have not yet                    of OTS during the 90-day period after the
    been transferred and provide for the payment of                 transfer date.
    the compensation and benefits of the employees                  OTS will use this period to ensure a full and
    that accrue before the date on which the                        accurate accounting and transfer of all OTS
    employees are transferred;                                      assets.
    manage any property of OTS, until the date on                   OTS will ensure that compensation and
    which the property is transferred;                              benefits owed to OTS employees are provided,
    take any other action necessary to wind up the                  and prudently manage any remaining assets
    affairs of OTS;                                                 until transferred.
    exercise any authority vested in the OTS Director               OTS intends to take necessary actions to
    on the day before the transfer date, only to the                ensure an appropriate disposition of its affairs
    extent necessary to wind up OTS; and                            and document the measures taken to wind
    exercise any authority vested in the OTS Director               down the agency.
    on the day before the transfer date, only to the
    extent necessary to carry out the transfer during
    such 90-day period. (325(a) and 325(b))




                    Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                         Page 55
                    Appendix 2
                    Summary of Title III Requirements and the Joint Implementation Plan with OIG Analysis



             Title III Requirements                                Joint Implementation Plan Sections                          OIG Analysis
The OTS Director shall, during the 90-day period                The Plan does not address this requirement.              We do not consider this a
beginning on the transfer date, continue to be treated                                                                   significant omission.
as an officer of the United States. Additionally, the
OTS Director will continue to be entitled to receive
compensation at the same annual rate of basic pay
that the OTS Director received on the day before the
transfer date. (325(b)(2))
Section 326. Continuation of Services.
Any agency, department, or other instrumentality of             The Plan does not address this requirement.              We do not consider this a
the United States, and any successor to any such                Section 326 is directed towards agencies,                significant omission.
agency, department, or instrumentality, that was,               departments, or other instrumentalities of the
before the transfer date, providing support services            United States providing support services to OTS
to OTS in connection with functions transferred to              regarding the transfer of functions – not to OCC,
OCC, FDIC, or FRB shall:                                        FDIC, or FRB.
   continue to provide such services, subject to
   reimbursement by OCC, FDIC, or FRB, until the
   transfer of functions under this title is complete;
   and
   consult with OCC, FDIC, or FRB, as appropriate,
   to coordinate and facilitate a prompt and orderly
   transition. (326)




                    Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions                          Page 56
Appendix 3
Pay Structures



This appendix presents a description of the pay structures of
the Office of Thrift Supervision (OTS), Office of the Comptroller
of the Currency (OCC), and Federal Deposit Insurance
Corporation (FDIC), and OCC’s planned new pay band for
certain transferred OTS employees.

OTS Pay Structure

OTS has a 30-grade pay system, with grades 25 to 30 regarded
as the executive level. Salary ranges include a minimum,
midpoint, and maximum. Salary structures are adjusted to
reflect geographic differences in the cost of living. OTS
considers the employee’s full salary as base pay for all
compensation computations.

OCC Pay Structure

OCC has a nine-band pay system, with bands VIII and IX
regarded as the executive level. Minimum and maximum salaries
are set within each band, and salaries are adjusted based on
merit. OCC considers the band salaries as base pay and
separately uses geographic pay differentials when OCC finds
significant differences in living and/or labor costs for various
metropolitan areas. Benefit computations include base pay plus
any geographic differential.

    New OCC Pay Band for Certain Transferred OTS Employees

    OCC created a new pay band (NB-V-T) for OTS examiners
    having the examiner III title and at the TG-18 OTS grade
    level. The salary ranges ($56,032-$102,036) for both the
    new OCC pay band and OTS’s TG-18 grade level are
    identical. OTS transferees who are placed in the NB-V-T pay
    band will be eligible to receive special increases consistent
    with OCC policy. They will also move to the full NB-V pay
    band salary range ($64,400 - $119,900) when they earn a
    National Bank Examiner commission, which is a requirement
    at the NB-V level. In addition, they will receive a $3,000
    bonus if they successfully complete the commissioning
    process on the first attempt. Alternatively, NB-V-T examiners
    can compete for NB-V bank examiner positions in large
    banks or policy without acquiring a National Bank Examiner
    commission, if they possess sufficient specialty expertise.


Review of the Joint Implementation Plan for the Transfer of         Page 57
Office of Thrift Supervision Functions
Appendix 3
Pay Structures




FDIC Pay Structure

FDIC has a 15-grade corporate grade (CG) structure for non-
supervisory employees; two corporate manager (CM) pay bands
for supervisory and managerial employees; a corporate expert
(CX) pay band for senior, non-supervisory and managerial
employees; and an executive management (EM) pay band for
executive level employees. Minimum and maximum salaries are
set for each grade/pay band. FDIC salaries include two
components, base salary and a locality pay adjustment. Benefits
computations are based on base pay plus locality pay. FDIC
negotiates pay and benefits with its employee union, and pay
and benefits for its bargaining unit employees are typically
covered by multi-year negotiated compensation.




Review of the Joint Implementation Plan for the Transfer of       Page 58
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 59
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 60
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 61
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 62
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 63
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 64
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 65
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 66
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 67
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 68
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 69
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 70
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 71
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 72
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 73
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 74
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 75
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 76
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 77
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 78
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 79
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 80
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 81
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 82
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 83
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 84
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 85
Office of Thrift Supervision Functions
Appendix 4
Joint Implementation Plan




Review of the Joint Implementation Plan for the Transfer of   Page 86
Office of Thrift Supervision Functions
Appendix 5
FRB Management Comments




Review of the Joint Implementation Plan for the Transfer of   Page 87
Office of Thrift Supervision Functions
Appendix 6
FDIC Management Comments




Review of the Joint Implementation Plan for the Transfer of   Page 88
Office of Thrift Supervision Functions
Appendix 7
OCC Management Comments




Review of the Joint Implementation Plan for the Transfer of   Page 89
Office of Thrift Supervision Functions
Appendix 7
OCC Management Comments




Review of the Joint Implementation Plan for the Transfer of   Page 90
Office of Thrift Supervision Functions
Appendix 7
OCC Management Comments




Review of the Joint Implementation Plan for the Transfer of   Page 91
Office of Thrift Supervision Functions
Appendix 8
OTS Management Comments




Review of the Joint Implementation Plan for the Transfer of   Page 92
Office of Thrift Supervision Functions
Appendix 9
Major Contributors to This Report




Board of Governors of the Federal Reserve System OIG

Timothy Rogers, OIG Manager
John Ayers, Senior Auditor and Project Lead
Jonathan Park, Auditor

Federal Deposit Insurance Corporation OIG

A. Michael Stevens, Evaluator-in-Charge

Department of the Treasury OIG

Susan Barron, Audit Director
Amni Samson, Audit Manager
Alicia Bruce, Auditor-in-Charge
Katherine Bustell, Auditor
Daniel Gerges, Auditor
John Tomasetti, Auditor
James Lisle, Referencer




Review of the Joint Implementation Plan for the Transfer of   Page 93
Office of Thrift Supervision Functions
Appendix 10
Report Distribution



Board of Governors of the Federal Reserve System

    Chairman

Federal Deposit Insurance Corporation

    Chairman

Department of the Treasury

    Deputy Secretary of the Treasury
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Thrift Supervision

    Acting Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

U.S. Government Accountability Office

    Comptroller General of the United States



Review of the Joint Implementation Plan for the Transfer of   Page 94
Office of Thrift Supervision Functions
